APPENDIX
1. Opinion sought to be reviewed.
Daniels v. Davey
United States Court of Appeals for the Ninth Circuit
February 12, 2020, Filed
No. 19-15629
Reporter: 2020 U.S. App. LEXIS 4461 *
CEDRIC L. DANIELS, Petitioner-Appellant,
v.
DAVE DAVEY, Warden, Respondent-Appellee.
Prior History:
[*1]
D.C. No. 1:15-cv-01211-DAD-JDP. Eastern District of California, Fresno.
Daniels v. Davey, 2019 U.S. Dist. LEXIS 2721 (E.D. Cal., Jan. 4, 2019)
Counsel: For Cedric L. Daniels, Petitioner – Appellant: Robert Joseph Beles, Law
Offices of Beles & Beles, Oakland, CA.
For DAVE DAVEY, Warden, Respondent – Appellee: David Andrew Eldridge, AGCAOffice of the California Attorney General, Sacramento, CA.
Judges: Before: LEAVY and MILLER, Circuit Judges.
Opinion
ORDER
The request for a certificate of appealability (Docket Entry No. 4) is denied because
appellant has not made a “substantial showing of the denial of a constitutional right.”
A-10

28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537 U.S. 322, 327, 123 S. Ct. 1029,
154 L. Ed. 2d 931 (2003).
Any pending motions are denied as moot.
DENIED.
End of Document

A-11

2. Prior opinions and orders.
a. District Court’s order adopting and supplementing
magistrate’s report and recommendations.
Case 1:15-cv-01211-DAD-JDP Document 46 Filed 02/27/19 Page 1 of 3
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA

CEDRIC L. DANIELS,
Petitioner,
v.
DAVE DAVEY,
Respondent.

No. 1:15-cv-01211-DAD-JDP
ORDER ADOPTING FINDINGS AND
RECOMMENDATIONS AND
DENYING PETITION FOR WRIT OF
HABEAS CORPUS
(Doc. No. 41)

Petitioner Cedric L. Daniels is represented by counsel and proceeding with a petition for
writ of habeas corpus pursuant to 28 U.S.C. § 2254. (Doc. No. 23.) On January 7, 2019,
the assigned magistrate judge issued findings and recommendations, recommending
that the petition be denied and that a certificate of appealability not issue. (Doc. No.
41.) The findings and recommendations were served on petitioner and contained notice
that any objections were to be filed within fourteen days after service. (Id. at 16.) On
February 1, 2019, petitioner filed timely objections.
In accordance with the provisions of 28 U.S.C. § 636(b)(1)(C), the court has conducted
a de novo review of the case. Having carefully reviewed the entire file, the court finds
the findings and recommendations to be supported by the record and proper analysis.
Case 1:15-cv-01211-DAD-JDP Document 46 Filed 02/27/19 Page 2 of 3
Petitioner contends that the magistrate judge erred by concluding that error in the state
trial court’s evidentiary rulings and jury instructions, if any, were harmless. The
magistrate judge reasoned that those alleged errors were harmless because, aside from
A-12

the witnesses whom the alleged errors concerned, the government still presented
additional evidence at trial sufficient to clearly establish petitioner’s guilt. (Doc. No. 41
at 5–8.)
As the findings and recommendations point out, one of the two victims, Suhila Hana,
identified petitioner as the individual who had robbed Hana and her son. (Id. at 7.)
Although petitioner argues that Hana’s identification of petitioner in court was “weak”
because she could not definitively identify petitioner as the perpetrator from a photo
lineup (Doc. No. 44 at 6), that fact does not raise “grave doubt” as to the outcome of the
trial in this case. See O’Neal v. McAninch, 513 U.S. 432, 435 (1995). Here, when shown
the photo lineup, Hana narrowed the list of potential perpetrators down to two
individuals: petitioner and another man. (Doc. No. 31-7 at 115.) Hana testified at
petitioner’s trial that she could not identify him as the perpetrator from the photo
lineup because the other man looked like petitioner and the photograph of petitioner
included in that lineup did not look “a hundred percent” like the perpetrator. (Id. at
115–16.) After seeing petitioner in person, however, Hana identified him as the
perpetrator in court, and she testified that she was “certain” of that identification. (Id.
at 106.) Given the reasons provided by the witness for her inability to definitively
identify petitioner as the perpetrator from the photo lineup she was shown and her
ability to identify petitioner as the perpetrator when seeing him in person at trial, the
alleged errors challenged by petitioner do not raise grave doubt as to the outcome of
petitioner’s trial.
See also People v. Daniels, No. F064237, 2014 WL 1456997, at *17 (Cal. Ct. App. Apr. 10,
(“[T]he evidence proving appellant’s guilt is very strong.”).
Petitioner also contends that he suffered prejudice as a result of the trial court’s
instruction to the jury that, to assess the reliability of
Case 1:15-cv-01211-DAD-JDP Document 46 Filed 02/27/19 Page 3 of 3
eye-witnesses’ identification, the jury could consider eyewitnesses’ certainty as to the
identification. (Doc. No. 44 at 7.)
The pending findings and recommendations concluded that petitioner had not shown
that the challenged jury instruction violated clearly established federal law and noted
that, indeed, the United States Supreme Court has allowed the consideration of
A-13

eyewitnesses’ certainty as a factor in deciding the reliability of eyewitness identification.
(Doc. No. 41 at 10.) In his objections, petitioner still does not identify a United States
Supreme Court decision in support of his claim. See Atwood v. Ryan, 870 F.3d 1033,
1046 (9th Cir. 2017) (“Under § 2254(d)(1), ‘clearly established Federal law’ includes only
the Supreme Court’s decisions in existence “as of the time the state court renders its
decision.”) (quoting Greene v. Fisher, 565 U.S. 34, 38 (2011)). The findings and
recommendations will therefore be adopted in full.
In addition, a state prisoner seeking a writ of habeas corpus has no absolute entitlement
to appeal a district court’s denial of his petition, and an appeal is only allowed in certain
circumstances. Miller-El v. Cockrell, 537 U.S. 322, 335–36 (2003). Specifically, the
federal rules governing habeas cases brought by state prisoners require a district court
issuing an order denying a habeas petition to either grant or deny therein a certificate
of appealability. See Rules Governing § 2254 Case, Rule 11(a). A judge shall grant a
certificate of appealability “only if the applicant has made a substantial showing of the
denial of a constitutional right,” 28 U.S.C. § 2253(c)(2), and the certificate must indicate
which issues satisfy this standard. 28 U.S.C. § 2253(c)(3). “Where a district court has
rejected the constitutional claims on the merits, the showing required to satisfy §
2253(c) is straightforward: [t]he petitioner must demonstrate that reasonable jurists
would find the district court’s assessment of the constitutional claims debatable or
wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). Here, petitioner has not made
such a showing. Accordingly, a certificate of appealability will not be issued.
For these reasons, the findings and recommendation issued January 7, 2019 (Doc. No.
41) are adopted in full;
The petition for writ of habeas corpus is denied;
The court declines to issue a certificate of appealability; and
The Clerk of the Court is directed to close this case.
IT IS SO ORDERED.
Dated: February 27, 2019

Dale A. Drozd
UNITED STATES DISTRICT JUDGE

A-14

b. Magistrate’s report and recommendations.
Daniels v. Davey
United States District Court for the Eastern District of California
January 4, 2019, Decided; January 7, 2019, Filed
Case No. 1:15-cv-01211-DAD-JDP
Reporter 2019 U.S. Dist. LEXIS 2721 *; 2019 WL 118407
CEDRIC L. DANIELS, Petitioner,
v.
DAVE DAVEY, Respondent.
Subsequent History: Certificate of appealability denied, Motion denied by, As moot
Daniels v. Davey, 2020 U.S. App. LEXIS 4461 (9th Cir. Cal., Feb. 12, 2020)
Prior History: Daniels v. Davey, 2015 U.S. Dist. LEXIS 127001 (E.D. Cal., Sept. 22,
2015)
Counsel:
[*1]
For Cedric L. Daniels, Petitioner: Robert Joseph Beles, LEAD ATTORNEY, Law Offices
of Beles & Beles, Oakland, CA.
For Dave Davey, Warden, Respondent: David Andrew Eldridge, LEAD ATTORNEY,
Attorney General’s Office for the State of California, Department of Justice,
Sacramento, CA.
Judges: Jeremy D. Peterson, UNITED STATES MAGISTRATE JUDGE.
Opinion by: Jeremy D. Peterson
Opinion

A-15

FINDINGS AND RECOMMENDATIONS TO
DENY PETITION FOR A WRIT OF HABEAS CORPUS
OBJECTIONS DUE WITHIN FOURTEEN DAYS
ECF No. 23
Petitioner Cedric L. Daniels, a state prisoner represented by counsel, seeks a writ of
habeas corpus under 28 U.S.C. § 2254. Petitioner claims constitutional violations arising
from evidentiary rulings, ineffective assistance of counsel, jury instructions, and
sentencing. We recommend that the court deny the petition for the reasons discussed
below.
I. Background
Petitioner challenges his conviction and sentence arising from an armed robbery.
According to the government, petitioner and an accomplice, Lovelle Mixon, robbed Tony
Moushi and his mother, Suhila Hana, with a firearm, injuring Moushi in the process.
After a jury trial, petitioner was convicted of two counts of first degree robbery and one
count of assault with a firearm. The jury also
[*2]
found that petitioner used a firearm in connection with the robberies and personally
inflicted great bodily injury in connection with the assault. At sentencing, the trial court
found two prior strikes for the purposes of California’s three-strike law, and petitioner
was sentenced to an aggregate prison term of thirty-five years to life.
The following facts are drawn from the opinion of the Court of Appeal of the State of
California, Fifth Appellate District (“Court of Appeal”), and a presumption of
correctness applies to these facts. See 28 U.S.C. § 2254(e)(1); Crittenden v. Chappell, 804
F.3d 998, 1010-11 (9th Cir. 2015); ECF No. 31-17. An independent review of the record,
see Nasby v. McDaniel, 853 F.3d 1049, 1054-55 (9th Cir. 2017), warrants the adoption
of the following facts as a fair and accurate summary of the underlying offenses.
In early 2009, Desiree Werner shared a home with Mixon, [petitioner] and
Johnny Walker, who is [petitioner’s] brother. Werner overheard
[petitioner], Mixon and Walker planning to rob a home that they believed
A-16

contained $100,000 in cash and jewelry. Werner saw [petitioner] in
possession of a small handgun during February 2009.
One day prior to February 21, 2009, Moushi saw [petitioner] standing
outside a cigarette store next to one of Moushi’s friends. Moushi was
wearing two necklaces, a
[*3]
diamond cross, a distinctive ring and a watch in a visible manner.
Around 8:45 p.m. on February 21, 2009, Hana returned home from work.
She made a telephone call and then noticed that a man, subsequently
identified as Mixon, was standing near her. Mixon pointed a handgun at
Hana’s head and pushed her to the ground.
Moushi walked into his mother’s house. A man, subsequently identified as
[petitioner], pointed a gun at him. Moushi told Hana to call the police.
Mixon hit Hana with his gun and knocked the phone away from her.
Moushi lunged for [petitioner’s] gun and the two men struggled.
[Petitioner] pushed Moushi to the ground and pointed his gun at Moushi’s
chest. [Petitioner] repeatedly kicked Moushi and hit him with the gun.
[Petitioner] told Moushi to cooperate and said, “I am going to shoot you.
I am going to kill you.” [Petitioner] pulled the necklaces Moushi was
wearing off his neck and took some money out of Moushi’s pocket. He
demanded to know where Moushi kept his “shit.”
Mixon grabbed Hana by the hair and dragged her into the living room
where Moushi and [petitioner] were struggling. Mixon told Moushi to
cooperate and hit Moushi with his gun butt.
[Petitioner] dragged Moushi into
[*4]
the bathroom. He told Moushi to cooperate and repeatedly hit him with
A-17

the gun. Mixon grabbed Hana and they entered the bathroom. Mixon made
Hana look at Moushi’s face and said that he was going to cut it up unless
Moushi cooperated. Mixon was holding a knife at the time as well as a gun.
Mixon threatened to kill both Moushi and Hana if he did not get “what he
came here for.” [Petitioner] demanded to know where Moushi kept his
belongings. He took a watch, ring and earrings that Moushi was wearing.
[Petitioner] sporadically left the bathroom and looked around the house.
Mixon shoved Hana into a bedroom. [Petitioner] searched Moushi’s and
Hana’s bedrooms. Moushi heard [petitioner] talking to someone on the
phone about the layout of the house and where “stuff was.”
Hana was brought back into the bathroom. Mixon and [petitioner] debated
whether or not they should kill Moushi and Hana. They told Moushi that
they were going to kill him. Eventually Moushi and Hana realized that
[petitioner] and Mixon had left the house. They drove to a relative’s house
and called the police.
Moushi suffered contusions and cuts from having been hit and stomped.
He required stitches on his left temple and medical
[*5]
staples on the back of his head to close wounds. His injuries left scars.
During the robbery, [petitioner] and Mixon stole, inter alia, a rifle, several
pieces of jewelry and approximately $3,000. The stolen jewelry consisted
of yellow diamonds in the shape of a cross, chains, bracelets, a watch, a
distinctive ring and earrings.
Werner saw Mixon, [petitioner] and Walker return home during the
evening of February 21, 2009. The men were excited and talked among
themselves about having robbed an “Arabian dude” and his mother.
Walker said to Mixon “that he should have hit the dude harder with the
gun.” The shirt that Mixon was wearing and Mixon’s handgun were
covered in blood. Mixon carried a rifle, [petitioner] carried a black bag, and
Walker carried a small case containing a handgun. The black bag
A-18

contained men’s jewelry, which was dumped on a table. Werner looked at
the jewelry. There were yellow diamonds, chains, necklaces, watches and
a ring. The three men divided the jewelry among themselves. Werner
looked at photographs of the jewelry that was stolen from Moushi and
recognized several of the pieces.
People v. Daniels, No. F064237, 2014 Cal. App. Unpub. LEXIS 2564, 2014 WL 1456997
at *1-3 (Cal. Ct. App. Apr. 10, 2014).
II. Discussion
A federal court may grant habeas relief
[*6]
when a petitioner shows that his custody violates federal law. See 28 U.S.C. §§ 2241(a),
(c)(3), 2254(a); Williams v. Taylor, 529 U.S. 362, 374-75, 120 S. Ct. 1495, 146 L. Ed. 2d
389 (2000). Section 2254 of Title 28, as amended by the Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”), governs a state prisoner’s habeas petition. See
§ 2254; Harrington v. Richter, 562 U.S. 86, 97, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011);
Woodford v. Garceau, 538 U.S. 202, 206-08, 123 S. Ct. 1398, 155 L. Ed. 2d 363 (2003).
To decide a Section 2254 petition, a federal court examines the decision of the last state
court that issued a reasoned opinion on petitioner’s habeas claims. See Wilson v. Sellers,
138 S. Ct. 1188, 1192, 200 L. Ed. 2d 530 (2018). The standard that governs our review
of the state court’s decision depends on whether the state court adjudicated petitioner’s
claims on the merits.
When a state court has adjudicated a petitioner’s claims on the merits, a federal court
reviews the state court’s decision under the deferential standard of Section 2254(d).
Section 2254(d) precludes a federal court from granting habeas relief unless a state
court’s decision is (1) contrary to clearly established federal law, (2) a result of an
unreasonable application of such law, or (3) based on an unreasonable determination of
facts. See § 2254(d); Murray v. Schriro, 882 F.3d 778, 801 (9th Cir. 2018). A state court’s
decision is contrary to clearly established federal law if it reaches a conclusion “opposite
to” a holding of the United States Supreme Court or a conclusion that differs from the
Supreme Court’s precedent on “materially indistinguishable

A-19

[*7]
facts.” Soto v. Ryan, 760 F.3d 947, 957 (9th Cir. 2014) (citation omitted). The state
court’s decision unreasonably applies clearly established federal law when the decision
has “no reasonable basis.” Cullen v. Pinholster, 563 U.S. 170, 188, 131 S. Ct. 1388, 179
L. Ed. 2d 557 (2011). An unreasonable determination of facts occurs when a federal
court is “convinced that an appellate panel, applying the normal standards of appellate
review, could not reasonably conclude that the finding is supported by the record.”
Loher v. Thomas, 825 F.3d 1103, 1112 (9th Cir. 2016). A federal habeas court has an
obligation to consider arguments or theories that “could have supported a state court’s
decision.” See Sexton v. Beaudreaux, 138 S. Ct. 2555, 2557, 201 L. Ed. 2d 986 (2018)
(quoting Richter, 562 U.S. at 102). In addition, one rule applies to all state prisoners’
petitions adjudicated on the merits: the petitioner must show that the state court’s
decision is “so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.”
Richter, 562 U.S. at 103.
Even when a state court does not explicitly address a petitioner’s claims on the merits,
a Section 2254 petitioner still must satisfy a demanding standard to obtain habeas relief.
When a state court gives no reason for denying a petitioner’s habeas claim, a rebuttable
presumption arises that the state court adjudicated the claim on the merits under
Section 2254(d). See Richter, 562 U.S. at 99. And a federal
[*8]
habeas court’s obligation to consider arguments or theories that could support a state
court’s decision extends to state-court decisions that offer no reasoning at all. See
Sexton, 138 S. Ct. at 2557.
If a state court denies a petitioner’s habeas claim solely on a procedural ground, then
Section 2254(d)’s deferential standard does not apply. See Visciotti v. Martel, 862 F.3d
A-20

749, 760 (9th Cir. 2016). However, if the state court’s decision relies on a state
procedural rule that is “firmly established and regularly followed,” the petitioner has
procedurally defaulted on his claim and cannot pursue habeas relief in federal court
unless he shows that the federal court should excuse his procedural default. See Johnson
v. Lee, 136 S. Ct. 1802, 1804, 195 L. Ed. 2d 92 (2016); accord Runningeagle v. Ryan, 825
F.3d 970, 978-79 (9th Cir. 2016). If the petitioner has not pursued his habeas claim in
state court at all, the claim is subject to dismissal for failure to exhaust state-court
remedies. See Murray v. Schriro, 882 F.3d 778, 807 (9th Cir. 2018).
If obtaining habeas relief under Section 2254 is difficult, “that is because it was meant
to be.” Richter, 562 U.S. at 102. As the Supreme Court has put it, federal habeas review
“disturbs the State’s significant interest in repose for concluded litigation, denies society
the right to punish some admitted offenders, and intrudes on state sovereignty to a
degree matched by few exercises of federal judicial authority.” Id. at 103 (citation
omitted). Our habeas
[*9]
review authority serves as a “guard against extreme malfunctions in the state criminal
justice systems, not a substitute for ordinary error correction through appeal.” Id. at
102-03 (emphasis added).
Here, petitioner claims constitutional errors in evidentiary rulings, ineffective assistance
of counsel, errors in jury instructions, and errors in sentencing. Petitioner has not
shown that he is entitled to habeas relief.
a. Evidentiary rulings
Petitioner raises four claims that pertain to the trial court’s evidentiary rulings. First,
petitioner contends that the trial court erred by limiting the impeachment of Tony
Moushi, an alleged victim, when the court barred questions about Moushi’s prior
A-21

convictions and pending deportation proceedings. Second, petitioner contends that the
trial court erred by limiting his impeachment of Desiree Werner, the government’s
witness, when the court barred questions about Werner’s past acts of prostitution and
theft as well as pending charges related to prostitution. Third, petitioner contends that
the trial court erred by admitting hearsay evidence during the examination of Werner.
Fourth, petitioner contends that the trial court erred by admitting evidence of prior
[*10]
misrepresentations during the cross-examination of Scott Fraser, petitioner’s expert
witness on eyewitness identification. Petitioner claims that these errors in evidentiary
rulings violated various rights under the Fifth, Sixth, Fourteenth Amendments.
The alleged errors in the evidentiary rulings were at most harmless. The standard from
Brecht v. Abrahamson, 507 U.S. 619, 113 S. Ct. 1710, 123 L. Ed. 2d 353 (1993), governs
the harmless-error inquiry here. See Dixon v. Williams, 750 F.3d 1027, 1034 (9th Cir.
2014) (per curiam). Under Brecht, a petitioner can obtain federal habeas relief only if
“the error had substantial and injurious effect or influence in determining the jury’s
verdict.” 507 U.S. at 637. To satisfy this standard, the court must have “grave doubt”
as to the outcome, meaning that “in the judge’s mind, the matter is so evenly balanced
that he feels himself in virtual equipoise as to the harmlessness of the error.” See O’Neal
v. McAninch, 513 U.S. 432, 435, 115 S. Ct. 992, 130 L. Ed. 2d 947 (1995). The Brecht
standard applies “in virtually all” Section 2254 cases, see Fry v. Pliler, 551 U.S. 112, 117,
127 S. Ct. 2321, 168 L. Ed. 2d 16 (2007), and only in rare cases involving truly egregious
errors can a federal court grant habeas relief without the harmless-error inquiry.1
1

Cases that would circumvent the harmless-error inquiry are truly rare. Such a case is one
involving “a deliberate and especially egregious error of the trial type, or one that is combined
with a pattern of prosecutorial misconduct” that “might so infect the integrity of the proceeding
as to warrant the grant of habeas relief, even if it did not substantially influence the jury’s
verdict.” See Brecht, 507 U.S. at 638 n. 9. Examples of such egregious errors include requiring
representation by counsel who has a conflict of interest, Holloway v. Arkansas, 435 U.S. 475,

A-22

Here, the record shows that the alleged evidentiary errors were harmless. Aside from
the testimony of witnesses at issue here—Moushi, Werner, and Fraser—the government
had enough evidence to show petitioner’s guilt and to enhance
[*11]
his sentence for infliction of great bodily injury. One of the two victims, Suhila Hana,
identified petitioner in court. RT 3:572-75.2 Hana testified that she saw petitioner enter
her bedroom with a gun and search through her belongings. See RT 3:519-23, 525-26,
561-62. She heard petitioner telling Mixon to “go search” while petitioner “take[s] care
of Ton[y] [Moushi].” RT 3:523-24. She saw petitioner kicking Moushi in various parts
of his body. RT 3:508-11, 514-15. She also testified that petitioner hit Moushi in the head
with the gun, causing bleeding. RT 3:511-12, 522, 530.3 She testified that she saw
petitioner grabbing a watch, jewelry and cash from Moushi. RT 3:512-14. She also
testified that she had missing items after the robbery. RT 3:536-38. She identified the
stolen items in court. RT 3:538-42. Petitioner does not contend that the examination of
Hana was deficient in any way.
In contrast, the evidentiary rulings challenged by petitioner do not raise grave doubt as

489, 98 S. Ct. 1173, 55 L. Ed. 2d 426 (1978), trial before a judge who has a direct pecuniary
interest in the outcome, Tumey v. State of Ohio, 273 U.S. 510, 535, 47 S. Ct. 437, 71 L. Ed. 749,
5 Ohio Law Abs. 159, 5 Ohio Law Abs. 185, 25 Ohio L. Rep. 236 (1927), precluding counsel of
choice from representing a criminal defendant, United States v. Gonzalez-Lopez, 548 U.S. 140,
144, 126 S. Ct. 2557, 165 L. Ed. 2d 409 (2006), and precluding exculpatory evidence during a
cross-examination, see Holley v. Yarborough, 568 F.3d 1091, 1098 (9th Cir. 2009).
2

All “RT” citations refer to the reporter’s transcript, which includes the trial transcript. All
“CT” citations refer to the clerk’s transcript, which includes the parties’ court submissions.
3

Even “[a]brasions, lacerations, and bruising can constitute great bodily injury” for the
challenged sentence enhancement, as discussed further below. See People v. Jung, 71 Cal. App.
4th 1036, 1042, 84 Cal. Rptr. 2d 5 (1999).

A-23

to the trial’s outcome. As for Moushi’s impeachment, the evidence that petitioner sought
to introduce—a conviction for unlawfully carrying a firearm, the deportation
proceedings that resulted from the same firearm conviction, and a dismissed
[*12]
charge for cultivating marijuana—fall short of showing Moushi’s dishonesty, so the lack
of impeachment based on those matters does not raise grave doubt as to the trial’s
outcome. As for Werner, she testified that she had been a prostitute, that she had
attempted to possess a stolen vehicle, and that she received nothing in return for
testifying in petitioner’s trial other than expenses for food and travel, see RT 2:263-65,
318-19, so the lack of impeachment based on acts of prostitutions and pending cases
pertaining to prostitution does not raise grave doubt either. As for the purportedly
hearsay statements—statements made by petitioner and his co-conspirators—those
statements were cumulative, given the government’s other evidence, namely Hana’s
testimony, which sufficed to show petitioner’s guilt and to enhance his sentence. As for
Fraser’s impeachment, the record does not show that the jury verdict would have been
different if the government had not impeached him with a prior instance of
misrepresentation: Fraser testified that he had not interviewed any witness in
petitioner’s case and that he could not opine whether the eyewitnesses in petitioner’s
case were correct or incorrect. While
[*13]
Fraser’s testimony might have helped the jury understand various factors affecting
human memory, it would not have definitively rebutted eyewitnesses’ accounts even if
the jury accepted it as true. See RT 6:1146-48.
The alleged errors in evidentiary rulings challenged by petitioner were harmless.
Petitioner therefore cannot obtain habeas relief based on the challenged evidentiary

A-24

rulings.4
b. Jury instructions
Petitioner contends that the trial court erred in three ways with respect to jury
instructions. First, petitioner argues that the trial court failed to instruct the jury on the
law applicable to co-conspirators’ statements. Second, petitioner contends that the trial
court erred by instructing the jury that Mixon was an accomplice as a matter of law.
Third, petitioner argues that the trial court erred by giving an improper jury instruction
on eyewitness identification.
The first two arguments warrant little discussion. Aside from the co-conspirators’
statements, the government had sufficient evidence to show petitioner’s guilt and to
enhance petitioner’s sentence for infliction of great bodily injury, as discussed above.
The alleged errors by the trial court—if
[*14]
they were errors at all—were harmless.
4

Another problem with petitioner’s challenges to the evidentiary rulings is that a federal habeas
court cannot review questions of state evidentiary law. See Estelle v. McGuire, 502 U.S. 62, 68,
112 S. Ct. 475, 116 L. Ed. 2d 385 (1991); Maquiz v. Hedgpeth, 907 F.3d 1212, 1217 (9th Cir.
2018); Alberni v. McDaniel, 458 F.3d 860 (9th Cir. 2006). Although petitioner relies only on
broad constitutional principles such as due process and the right to a fair trial, his appeals to
such broad principles do not raise federal claims. See Gray v. Netherland, 518 U.S. 152, 162, 116
S. Ct. 2074, 135 L. Ed. 2d 457 (1996); Casey v. Moore, 386 F.3d 896, 913 (9th Cir. 2004). Only the
holdings in the Supreme Court’s decisions can identify “clearly established Federal law,” see
Atwood v. Ryan, 870 F.3d 1033, 1046 (9th Cir. 2017), and petitioner has not identified a Supreme
Court holding supporting his argument that the evidentiary rulings violated the constitutional
provisions he cites. Respondent highlights this deficiency in his answer, see ECF No. 32 at 26-27,
34-35, 41, but petitioner does not address the deficiency in his traverse, see generally ECF No.
39-1.

A-25

The third jury-instruction claim challenges an instruction that prompted the jury to
consider an eyewitness’s level of certainty. The trial court gave the following jury
instruction on eyewitness identification:
You have heard eyewitness testimony identifying the defendant. As with
any other witness, you must decide whether an eyewitness gave truthful
and accurate testimony. In evaluating identification testimony, consider
the following questions:
1. Did the witness know or have contact with the defendant before the
event?
2. How well could the witness see the perpetrator?
3. What were the circumstances affecting the witness’s ability to observe
such as lighting, weather conditions, obstructions, distance, movement of
the witness or perpetrators and duration of observation?
4. How closely was the witness paying attention?
5. Was the witness under stress when he or she made the observation?
6. Did the witness give a description and how does that description
compare to the defendant?
7. How much time passed between the event and the time when the
witness identified the defendant?
8. Was the witness asked to pick the perpetrator out of a group?
9. Did the witness
A-26

[*15]
ever fail to identify the defendant?
10. Did the witness ever change his or her mind about the identification?
11. How certain was the witness when he or she made an identification?
12. How quickly did the witness make the identification?
13. Are the witness and the defendant of different races?
14. Was the witness able to identify other participants in the crime?
15. Was the witness able to identify the defendant in a photographic or
physical lineup?
16. Were there other circumstances affecting the witness’s ability to make
an accurate identification?
RT 8:1609-10 (emphasis added). Petitioner contends that the eleventh question violated
his right to due process. He argues, “[S]cientific research has disproved the notion that
witness certainty is a meaningful indicator of reliability. Thus, instructing jurors in
petitioner’s case that confidence is an indicator of reliability amounts to instructing
them that a false proposition is true.” ECF No. 23 at 58 (citations omitted). Petitioner
concedes that the United States Supreme Court has allowed the consideration of
eyewitnesses’ certainty as a factor in deciding the reliability of eyewitness identification.
See id.5 The California Supreme Court,
5

See Neil v. Biggers, 409 U.S. 188, 199-200, 93 S. Ct. 375, 34 L. Ed. 2d 401 (1972) (“As indicated
by our cases, the factors to be considered in evaluating the likelihood of misidentification include

A-27

[*16]
too, has allowed the jury to consider the level of certainty exhibited by an eyewitness,
as the Court of Appeal noted on petitioner’s direct appeal. See People v. Johnson, 3 Cal.
4th 1183, 1231-32, 14 Cal. Rptr. 2d 702, 842 P.2d 1 (1992); ECF No. 31-17 at 13.6
Petitioner relies on state-court decisions from Massachusetts, Georgia, and New Jersey,
but only a holding from the United States Supreme Court can establish a clearly
established federal law. See Atwood v. Ryan, 870 F.3d 1033, 1046 (9th Cir. 2017).
Because petitioner has not identified a Supreme Court holding supporting his claim, this
court cannot conclude that the state court’s decision was “contrary to, or involved an
unreasonable application of, clearly established Federal law,” as required by the
AEDPA. See 28 U.S.C. § 2254(d)(1).7
Petitioner has not shown that he is entitled to habeas relief based on the alleged errors
in the jury instructions.
c. Sentencing
the opportunity of the witness to view the criminal at the time of the crime, the witness’ degree
of attention, the accuracy of the witness’ prior description of the criminal, the level of certainty
demonstrated by the witness at the confrontation, and the length of time between the crime and
the confrontation.”) (emphasis added); Manson v. Brathwaite, 432 U.S. 98, 114, 97 S. Ct. 2243,
53 L. Ed. 2d 140 (1977) (listing Biggers factors, including “level of certainty”).
6

Indeed, the challenged jury instruction was a model jury instruction in California state court.
See Cal. Jury Instr. Crim. 2.92; Daniels, 2014 Cal. App. Unpub. LEXIS 2564, 2014 WL 1456997
at *15.
7

Petitioner also advances a perfunctory argument that his trial counsel was deficient because
the attorney did not request a jury instruction that “witness certainty or confidence is not
indicative or accuracy or reliability in the context of eyewitness identification.” ECF No. 23 at
61. Because neither the United States Supreme Court nor the California Supreme Court has
accepted petitioner’s reasoning, his trial counsel was not deficient for failing to request such an
instruction.

A-28

Petitioner next challenges three aspects of his sentencing. First, he claims that
insufficient evidence supported his enhanced sentence for infliction of great bodily
injury. Second, he claims that insufficient evidence showed that his prior juvenile
offense was a felony. Third, petitioner claims that the trial court erred in declining to
strike his prior felony for the purposes of sentencing.
[*17]
We address each claim in turn.
i. Great bodily injury
California Penal Code Section 12022.7(a) imposes a sentence enhancement when a
criminal defendant personally inflicts great bodily injury during the commission of a
felony.8 Section 12022.7(f) defines great bodily injury as “significant or substantial
physical injury.” The requisite injury need not be permanent, prolonged, or protracted.
See People v. Escobar, 3 Cal. 4th 740, 750, 12 Cal. Rptr. 2d 586, 837 P.2d 1100 (1992).
“Abrasions, lacerations, and bruising can constitute great bodily injury.” People v. Jung,
71 Cal. App. 4th 1036, 1042, 84 Cal. Rptr. 2d 5 (1999).
At the conclusion of trial, the jury found that petitioner had inflicted great bodily injury
on Moushi under Section 12022.7(a). See CT 2:581. In this habeas proceeding, petitioner
contends that the jury had insufficient evidence to reach that finding. Petitioner argues:
The evidence suggests that either petitioner or Mixon hit Moushi with a gun that
resulted in bleeding. However, Moushi did not describe any injuries, but did state that

8

See Cal. Penal Code § 12022.7 (“Any person who personally inflicts great bodily injury on any
person other than an accomplice in the commission of a felony or attempted felony shall be
punished by an additional and consecutive term of imprisonment in the state prison for three
years.”).

A-29

he received medical care. Moushi was not treated on the scene, nor did he leave in an
ambulance. Petitioner contends that evidence that Moushi bled is insufficient to show
great bodily injury. . . . [T]he jury could have only speculated as to how Moushi’s injuries
rose to the level of great bodily injury.
ECF No. 23 at 65-66.
The record undermines petitioner’s
[*18]
argument. Moushi testified that petitioner had hit Moushi with a gun’s handle about 26
times. RT 5:866-67. Photographs presented to the jury showed Moushi bleeding from his
head. RT 5:898-99. Another photograph showed the back of Moushi’s head “busted
open” as a result of petitioner’s attack. RT 5:900. Moushi showed the jury the scar that
resulted from his injuries. RT 5:902-03. Moushi also identified Petitioner as the
assailant. See RT 5:899-90 (“Q. Did that happen after Mr. Daniels hit you or Mr. Mixon
hit you? A. I’m sure it was Mr. Daniels.”). In addition, Hana testified that she observed
that Moushi was bleeding on his head from where he was hit by the gun during the
robbery. See RT 3:529-530 (“Q. Could you see where — could you see where he was
bleeding from? A. Yeah. He hit him in the — with the gun here on this side. (Indicating.)
THE COURT: Indicating the top of the head above the ear. THE WITNESS: Yeah.”).
The jury had sufficient evidence to find that petitioner caused great bodily injury to
Moushi.
ii. Juvenile offense
At sentencing, the trial court found that petitioner had two prior strikes, both of which
were juvenile offenses, under California’s three-strike law. See

A-30

[*19]
RT 9:1840, 1844. Petitioner challenges one of the two prior strikes, an assault conviction
that resulted from petitioner’s punching another ward while he was in juvenile custody.
See ECF No. 23 at 68. Petitioner contends that the record from the relevant juvenile
proceeding showed that he committed a misdemeanor, not a felony, because the
sentencing court made no express statement that petitioner was a felon and placed him
on probation. See ECF No. 23 at 68-71. Petitioner is mistaken.
Again, the record undermines petitioner’s argument. The sentencing court in
petitioner’s juvenile proceeding stated:
So I believe the evidence has shown, beyond a reasonable doubt, that [petitioner] did
commit the offenses listed here 245(a)(1) and felony assault likely to produce great
bodily injury. And, alternatively, a felony battery with serious bodily injury as well, too.
CT 3:772 (emphasis added); RT 9:1787. The sentencing court also found that petitioner
caused great bodily harm under California Penal Code Section 12022.7. CT 3:772.
Section 12022.7 applies only in felony cases. See Cal. Penal Code § 12022.7(a)-(e).
Petitioner’s assault offense was a felony.
iii. Declining to strike a prior felony
Petitioner next challenges the trial court’s decision not to strike his prior felony offense
[*20]
for the purposes of California’s three-strike law. Under the California Supreme Court’s
decision in People vs. Romero, a sentencing court has the discretion to strike a prior
felony conviction for the purposes of California’s three-strike law in the interests of
justice. See13 Cal. 4th 497, 507, 53 Cal. Rptr. 2d 789, 917 P.2d 628 (1996). To decide
A-31

whether to strike a prior felony conviction, a California court considers various factors,
including the nature of the present offense, the criminal defendant’s criminal history,
the defendant’s background, character, prospects, and other individualized
considerations. See People v. Williams, 17 Cal. 4th 148, 163, 69 Cal. Rptr. 2d 917, 948
P.2d 429 (1998).
Petitioner contends that the trial court’s denial of his attempt to strike his prior felony
conviction was an arbitrary decision that violated his right to due process. See ECF No.
23 at 73. Petitioner does not develop an argument how the decision was arbitrary or how
an erroneous decision under Romeo would violate his due process rights. And even if
petitioner had a federal habeas claim, a reasonable jurist could find that the trial court
did not err, as the Court of Appeal found on direct appeal in petitioner’s case. The Court
of Appeal noted:
[Petitioner] has been committing theft related crimes since he was 14 years old. Home
[*21]
monitoring, probation, short terms of incarceration in juvenile hall and adult jail all
failed to extinguish [Petitioner]’s criminality. The current convictions are [Petitioner]’s
third serious crime in less than 10 years. [Petitioner] committed the home invasion
shortly after completing a three-year adult probationary period. His criminality is
escalating; the home invasion robbery and assault are significantly more violent and
serious than his prior crimes. [Petitioner] was armed with a handgun, which he used as
a cudgel. There is nothing in [Petitioner]’s background or social history that removes
him from the scope of the three strikes law. [Petitioner] lacks any substantial work
history, educational accomplishments or vocational training. There is no indication that
he financially supports his two children or is an active participant in their lives.
[Petitioner]’s conduct as a whole was a strong indication of unwillingness or inability
to comply with the law. It is clear from the record that prior rehabilitative efforts have
been unsuccessful for him.
A-32

Daniels, 2014 Cal. App. Unpub. LEXIS 2564, 2014 WL 1456997, at *20. Petitioner does
not challenge this factual finding by the Court of Appeal. Given petitioner’s extensive
criminal history, a reasonable
[*22]
jurist could find that declining to strike a prior felony was not an error.
d. Ineffective assistance of counsel
Petitioner argued on direct appeal that the trial court’s evidentiary rulings that limited
the impeachment of Moushi and Werner—the same evidentiary rulings discussed
above—violated the Confrontation Clause. The Court of Appeal rejected petitioner’s
claim that his rights under the Confrontation Clause were violated, stating that by
failing to raise the claim before the trial court, petitioner had forfeited the claim. In this
habeas proceeding, petitioner contends that he had ineffective assistance of counsel
because his trial counsel failed to preserve the Confrontation Clause claim for appeal.
A doubly deferential standard governs a federal habeas petitioner’s claim of ineffective
assistance of counsel. See id. at 105. On direct appeal, the two-step inquiry from
Strickland v. Washington guides the analysis for an ineffective-assistance-of-counsel
claim. See466 U.S. 668, 687, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984). First, a criminal
defendant must show some deficient performance by counsel that is “so serious that
counsel was not functioning as the counsel guaranteed the defendant by the Sixth
Amendment.” Id. Second, the defendant must show that the deficient performance
caused him prejudice, which requires “showing
[*23]
that counsel’s errors were so serious as to deprive [the petitioner] of a fair trial.” Id. On
habeas review, coupled with Section 2254(d)’s fairminded jurist standard, the Strickland
A-33

requirements become even more deferential: the question is “whether there is any
reasonable argument that counsel satisfied Strickland’s deferential standard.” Richter,
562 U.S. at 105 (emphasis added). That is, if there is even one reasonable argument that
counsel did not violate the Strickland standard—even if the state court has not
identified such argument—the petitioner cannot obtain habeas relief. See id. at 106.
Here, petitioner cannot satisfy the prejudice prong of the Strickland standard. As
discussed above, the government had sufficient evidence to show petitioner’s guilt and
to enhance his sentence aside from Werner’s and Moushi’s testimony. Even if
petitioner’s trial counsel had raised the Confrontation Clause claim before the trial
court, a reasonable jurist could conclude that the trial counsel’s error did not deprive
petitioner of a fair trial. Petitioner therefore cannot obtain habeas relief for the alleged
ineffective assistance of counsel.
e. Cumulative error
Finally, petitioner contends that, individual errors challenged above had the cumulative
effect of
[*24]
making his trial fundamentally unfair. Petitioner does not develop an argument how the
alleged errors considered together constituted a violation of federal law. This court
cannot itself supply an argument in support of petitioner. In addition, the government
had sufficient evidence to show petitioner’s guilt and to enhance his sentence, as
discussed above. The record, considered together, does not show a ground for habeas
relief.
III. Certificate of appealability
A petitioner seeking a writ of habeas corpus has no absolute right to appeal a district
A-34

court’s denial of a petition; he may appeal only in limited circumstances. See 28 U.S.C.
§ 2253; Miller-El v. Cockrell, 537 U.S. 322, 335-36, 123 S. Ct. 1029, 154 L. Ed. 2d 931
(2003). Rule 11 Governing Section 2254 Cases requires a district court to issue or deny
a certificate of appealability when entering a final order adverse to a petitioner. See also
Ninth Circuit Rule 22-1(a); United States v. Asrar, 116 F.3d 1268, 1270 (9th Cir. 1997).
A certificate of appealability will not issue unless a petitioner makes “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). This standard
requires the petitioner to show that “jurists of reason could disagree with the district
court’s resolution of his constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed further.” Miller-El, 537
U.S. at 327;
[*25]
accord Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000).
Here, petitioner has not made a substantial showing of the denial of a constitutional
right. Thus, the court should decline to issue a certificate of appealability.
IV. Findings and recommendations
The court should deny the amended petition for a writ of habeas corpus, ECF No. 23,
and decline to issue a certificate of appealability.
These findings and recommendations are submitted to the U.S. District Court Judge
presiding over this case under 28 U.S.C. § 636(b)(1)(B) and Rule 304 of the Local Rules
of Practice for the United States District Court, Eastern District of California. Within
14 days of the service of the findings and recommendations, petitioner may file written
objections to the findings and recommendations with the court and serve a copy on all
parties. That document must be captioned “Objections to Magistrate Judge’s Findings
and Recommendations.” The District Judge will then review the findings and
A-35

recommendations under 28 U.S.C. § 636(b)(1)(C).
IT IS SO ORDERED.
Dated: January 4, 2019
/s/ Jeremy D. Peterson
UNITED STATES MAGISTRATE JUDGE
End of Document

A-36

c. California Supreme Court order.
People v. Daniels
Supreme Court of California
July 9, 2014, Opinion Filed
S218439
Reporter
2014 Cal. LEXIS 4911 *
THE PEOPLE, Plaintiff and Respondent, v. CEDRIC L. DANIELS II, Defendant and
Appellant.
Subsequent History: Magistrate’s recommendation at, Habeas corpus proceeding at
Daniels v. Davey, 2015 U.S. Dist. LEXIS 127001 (E.D. Cal., Sept. 22, 2015)
Prior History: [*1] Fifth Appellate District, No. F064237.
People v. Daniels, 2014 Cal. App. Unpub. LEXIS 2564 (Cal. App. 5th Dist., Apr. 10,
2014)
Judges: CANTIL-SAKAUYE, Chief Justice.
Opinion
The petition for review is denied.
End of Document

A-37

d. Court of Appeal opinion.
People v. Daniels
Court of Appeal of California, Fifth Appellate District
April 10, 2014, Opinion Filed
F064237
Reporter
2014 Cal. App. Unpub. LEXIS 2564 *
THE PEOPLE, Plaintiff and Respondent, v. CEDRIC L. DANIELS II, Defendant and
Appellant.
Notice: NOT TO BE PUBLISHED IN OFFICIAL REPORTS. CALIFORNIA RULES
OF COURT, RULE 8.1115(a), PROHIBITS COURTS AND PARTIES FROM CITING
OR RELYING ON OPINIONS NOT CERTIFIED FOR PUBLICATION OR ORDERED
PUBLISHED, EXCEPT AS SPECIFIED BY RULE 8.1115(b). THIS OPINION HAS
NOT BEEN CERTIFIED FOR PUBLICATION OR ORDERED PUBLISHED FOR THE
PURPOSES OF RULE 8.1115.
Subsequent History: Review denied by People v. Daniels, 2014 Cal. LEXIS 4911 (Cal.,
July 9, 2014)
Prior History:
[*1]
APPEAL from a judgment of the Superior Court of Stanislaus County, No. 1401218,
Scott T. Steffen, Judge.

A-38

Counsel: Janet J. Gray, under appointment by the Court of Appeal, for Defendant and
Appellant.
Kamala D. Harris, Attorney General, Dane R. Gillette, Chief Assistant Attorney
General, Michael P. Farrell, Assistant Attorney General, Carlos A. Martinez and Jamie
A. Scheidegger, Deputy Attorneys General, for Plaintiff and Respondent.
Judges: LEVY, Acting P.J.; DETJEN, J., LaPORTE, Pro Tem J.1 concurred.
Opinion by: LEVY, Acting P.J.
Opinion
INTRODUCTION
Appellant Cedric Daniels II and Lovelle Mixon committed a home invasion robbery on
February 21, 2009. While armed with handguns, they assaulted Tony Moushi and his
mother, Suhila Hana, and stole jewelry and other items.
Appellant2 was convicted after jury trial of first degree robbery (counts 1 and 2) and

1

Judge of the Superior Court of Kings County, assigned by the Chief Justice pursuant to article
VI, section 6 of the California Constitution.
2

The parties stipulated that Lovelle Mixon died on March 21, 2009. On that date two Oakland
police officers pulled Mixon over in a routine traffic stop. Mixon, who was on parole for assault
with a deadly weapon, had a no-bail warrant out for his arrest because of a parole violation.
Mixon opened fire on the officers, killing them both, and fled on foot. This sparked a manhunt
that lasted two hours and ended with an exchange of gunfire that killed Mixon and two more
police officers. (http://www.sfgate.com/bayarea/article/Family-s-account-of-Oakland-parolee-whokilled-3167584.php [last accessed on Feb. 14, 2014].) The jury was not given any information
about the events surrounding Mixon’s death.

A-39

assault with a firearm (count 3). (Pen. Code,3 §§ 212.5, subd. (a), 245, subd. (a)(1).)
Special allegations that appellant personally used a firearm in connection with the
robberies and personally inflicted great bodily injury in connection
[*2]
with the assault were found true. (§ 12022.53, subd. (b), 12022.7, subd. (a).) The court
found two prior strike allegations to be true. (§ 667, subd. (d).) Appellant was sentenced
to an aggregate term of 35 years to life imprisonment.
Appellant raises numerous claims of reversible error. He contests the sufficiency of the
evidence supporting the great bodily injury enhancement and the prior strikes. He
challenges limits
[*3]
that were placed on impeachment of certain witnesses and objects to the admission of
certain hearsay evidence. He advances four claims of instructional error. Appellant
asserts that use of juvenile adjudications as prior strikes infringes his constitutional jury
trial right. Finally, he contends that the trial court abused its discretion by refusing to
dismiss the prior strikes in the interests of justice. We are not persuaded by any of these
arguments and will affirm the judgment.
FACTS
In early 2009, Desiree Werner shared a home with Mixon, appellant and Johnny Walker,
who is appellant’s brother. Werner overheard appellant, Mixon and Walker planning to
rob a home that they believed contained $100,000 in cash and jewelry. Werner saw
appellant in possession of a small handgun during February 2009.
3

Unless otherwise specified all statutory references are to the Penal Code.

A-40

One day prior to February 21, 2009, Moushi saw appellant standing outside a cigarette
store next to one of Moushi’s friends. Moushi was wearing two necklaces, a diamond
cross, a distinctive ring and a watch in a visible manner.
Around 8:45 p.m. on February 21, 2009, Hana returned home from work. She made a
telephone call and then noticed that a man, subsequently identified as Mixon, was
standing
[*4]
near her. Mixon pointed a handgun at Hana’s head and pushed her to the ground.
Moushi walked into his mother’s house. A man, subsequently identified as appellant,
pointed a gun at him. Moushi told Hana to call the police. Mixon hit Hana with his gun
and knocked the phone away from her.
Moushi lunged for appellant’s gun and the two men struggled. Appellant pushed Moushi
to the ground and pointed his gun at Moushi’s chest. Appellant repeatedly kicked
Moushi and hit him with the gun. Appellant told Moushi to cooperate and said, “I am
going to shoot you. I am going to kill you.” Appellant pulled the necklaces Moushi was
wearing off his neck and took some money out of Moushi’s pocket. He demanded to
know where Moushi kept his “shit.”
Mixon grabbed Hana by the hair and dragged her into the living room where Moushi
and appellant were struggling. Mixon told Moushi to cooperate and hit Moushi with his
gun butt.
Appellant dragged Moushi into the bathroom.4 He told Moushi to cooperate and
4

Moushi testified that appellant dragged him into the bathroom. Hana testified that it was
Mixon who dragged Moushi into the bathroom.

A-41

repeatedly hit him with the gun. Mixon grabbed Hana and they entered the bathroom.
Mixon made Hana look at Moushi’s face and said that he was going to cut it up unless
Moushi cooperated. Mixon was holding a knife
[*5]
at the time as well as a gun. Mixon threatened to kill both Moushi and Hana if he did
not get “what he came here for.” Appellant demanded to know where Moushi kept his
belongings. He took a watch, ring and earrings that Moushi was wearing. Appellant
sporadically left the bathroom and looked around the house.
Mixon shoved Hana into a bedroom. Appellant searched Moushi’s and Hana’s bedrooms.
Moushi heard appellant talking to someone on the phone about the layout of the house
and where “stuff was.”
Hana was brought back into the bathroom. Mixon and appellant debated whether or not
they should kill Moushi and Hana. They told Moushi that they were going to kill him.
Eventually Moushi and Hana realized that appellant and Mixon had left the house. They
drove to a relative’s house and called the police.
Moushi suffered contusions and cuts from having been hit and stomped. He required
stitches on his left temple and medical staples on the back of his head to close wounds.
His injuries left scars.
During the robbery, appellant and Mixon stole, inter alia, a rifle,
[*6]
several pieces of jewelry and approximately $3,000. The stolen jewelry consisted of
yellow diamonds in the shape of a cross, chains, bracelets, a watch, a distinctive ring and
earrings.
A-42

Werner saw Mixon, appellant and Walker return home during the evening of February
21, 2009. The men were excited and talked among themselves about having robbed an
“Arabian dude” and his mother. Walker said to Mixon “that he should have hit the dude
harder with the gun.” The shirt that Mixon was wearing and Mixon’s handgun were
covered in blood. Mixon carried a rifle, appellant carried a black bag, and Walker carried
a small case containing a handgun. The black bag contained men’s jewelry, which was
dumped on a table. Werner looked at the jewelry. There were yellow diamonds, chains,
necklaces, watches and a ring. The three men divided the jewelry among themselves.
Werner looked at photographs of the jewelry that was stolen from Moushi and
recognized several of the pieces.
Moushi and Hana identified appellant as one of the robbers at trial. Moushi identified
appellant and Mixon in a photographic lineup. Hana identified Mixon in a photographic
lineup, but did not identify appellant.
DISCUSSION
I. Challenges
[*7]
To Evidentiary Sufficiency.
Appellant challenges the sufficiency of the evidence supporting the true finding on the
great bodily injury enhancement attached to count 3 (§ 12022.7, subd. (a)) and the true
finding on the prior strike allegation that is based on his juvenile adjudication in 2004
for assault likely to produce great bodily injury. (§ 245, subd. (a).) Neither argument is
convincing. As will be explained, the contested findings are supported by sufficient
evidence.
A. Standard of review. The same standard of review is applied to challenges to the
A-43

sufficiency of the evidence supporting guilty verdicts on substantive counts and to true
findings on enhancement allegations. (People v. Johnson (1980) 26 Cal.3d 557, 576, 162
Cal. Rptr. 431, 606 P.2d 738.)
“When a defendant challenges the sufficiency of the evidence, ‘”[t]he court must review
the whole record in the light most favorable to the judgment below to determine
whether it discloses substantial evidence—that is, evidence which is reasonable, credible,
and of solid value—such that a reasonable trier of fact could find the defendant guilty
beyond a reasonable doubt.” [Citation.]’ [Citations.] ‘Substantial evidence includes
circumstantial evidence and any reasonable
[*8]
inferences drawn from that evidence. [Citation.]’ [Citation.] We ‘”’presume in support
of the judgment the existence of every fact the trier could reasonably deduce from the
evidence.’” [Citation.]’ [Citation.]” (People v. Clark (2011) 52 Cal.4th 856, 942-943, 131
Cal. Rptr. 3d 225, 261 P.3d 243.)
“...’Conflicts and even testimony [that] is subject to justifiable suspicion do not justify
the reversal of a judgment, for it is the exclusive province of the trial judge or jury to
determine the credibility of a witness and the truth or falsity of the facts upon which a
determination depends. [Citation.] We resolve neither credibility issues nor evidentiary
conflicts; we look for substantial evidence. [Citation.]’ [Citation.] A reversal for
insufficient evidence’ is unwarranted unless it appears “that upon no hypothesis
whatever is there sufficient substantial evidence to support”’ the jury’s verdict.
[Citation.]” (People v. Zamudio (2008) 43 Cal.4th 327, 357, 75 Cal. Rptr. 3d 289, 181
P.3d 105.)
“Even when there is a significant amount of countervailing evidence, the testimony of
a single witness that satisfies the standard is sufficient to uphold the [disputed] finding.”
(People Barnwell (2007) 41 Cal.4th 1038, 1052, 63 Cal. Rptr. 3d 82, 162 P.3d 596.)
A-44

B. The great bodily injury enhancement is
[*9]
supported by substantial evidence.
Section 12022.7, subdivision (a) imposes a three-year sentence enhancement when the
defendant personally inflicts great bodily injury on any person other than the
defendant’s accomplice during the commission of a felony. Determination whether great
bodily injury has occurred is a question of fact for the jury to decide. (People v. Escobar
(1992) 3 Cal.4th 740, 750, 12 Cal. Rptr. 2d 586, 837 P.2d 1100.) Subdivision (f) of section
12022.7 defines great bodily injury as “a significant or substantial physical injury.”
Injury need not be permanent, prolonged or protracted. (Escobar, supra, at p. 750.)
“Abrasions, lacerations, and bruising can constitute great bodily injury.” (People v. Jung
(1999) 71 Cal.App.4th 1036, 1042, 84 Cal. Rptr. 2d 5.)
Appellant argues that the record does not contain substantial evidence proving Moushi
suffered significant physical injury within the meaning of section 12022.7. He asserts
that “one can only guess what the great bodily injury components might be” because
“[t]here was no description of [Moushi’s] injuries by any witness, no medical evidence
and no indication from Moushi that he suffered any serious injury.” Appellant’s
characterization of the state of the record is inaccurate.
Moushi
[*10]
testified appellant and Mixon beat him for 30 minutes. He was hit with a gun butt
approximately 26 times. He was stomped. Photographic evidence documented wounds
on the top and back of Moushi’s head. A photograph showed his “head bleeding, [his] jaw
real swollen, and some bruising around [his] cheeks.” Moushi sought medical treatment
A-45

for his injuries. A wound on his left temple was sutured and surgical staples were used
to close a wound on the back of his head. Moushi showed the jury a scar from the cranial
injuries. In addition, Hana testified that immediately after appellant and Mixon left the
house, she hugged Moushi and observed that he was bleeding on the top of his head
where he had been hit with the gun butt. This wound left a scar on his temple.
Considered in its entirety this testimony and photographic evidence amply proves that
Moushi suffered significant and substantial bodily injury. (People v. Nitschmann (1995)
35 Cal.App.4th 677, 680, 41 Cal. Rptr. 2d 325 [large gash and profuse bleeding]; People
v. Sanchez (1982) 131 Cal.App.3d 718, 734, 182 Cal. Rptr. 671 [contusions, lacerations
and abrasions]; People v. Jaramillo (1979) 98 Cal.App.3d 830, 836, 159 Cal. Rptr. 771
[multiple contusions].)
C. There is substantial evidence supporting
[*11]
the true finding on the strike allegation based on
the 2004 assault (§§ 245, subd. (a) & 12022.7).
1. Facts.
The first amended information alleged, in relevant part, that on or about September 20,
2004, appellant suffered a serious felony conviction within the meaning of section
1192.7, subdivision (c) and section 667, subdivision (d), for the crime of assault likely to
produce great bodily injury with an enhancement for personally inflicting great bodily
injury (§§ 245, subd. (a)(1), 12022.7).
During court trial of the enhancement allegations, the prosecutor5 proved the 2004
5

Although two deputy district attorneys appeared on behalf of the People at trial, the singular
term “prosecutor” was used to avoid confusion and enhance readability.

A-46

assault conviction by proffering a copy of the reporter’s transcript of appellant’s
September 20, 2004, jurisdictional hearing (Ex. 46.). During that hearing the juvenile
court found that “the evidence has shown, beyond a reasonable doubt, that he did
commit the offenses listed here [section] 245 (a)(1) and felony assault likely to produce
great bodily injury. And, alternatively, a felony battery with serious bodily injury as well,
too. [¶] So I do find the petition to be sustained in that regard. And find that the minor
does come within the jurisdiction of the Court under section 602.” The juvenile court
also found
[*12]
that “the description of the injuries in this case is sufficient to follow within [section]
12022.7. So I believe there was a significant or substantial injury within the meaning of
[section] 12022.7.” Based on these findings the juvenile court found “the allegations to
be true beyond a reasonable doubt then.” Appellant was continued as a ward, placed on
probation and detained in juvenile hall until his 18th birthday.
After reviewing the reporter’s transcript (Ex. 46) the court made the following finding
concerning the 2004 prior felony conviction allegation: “The [juvenile] Court made a
finding that the Defendant committed the offenses listed as the [section] 245(a)(1),
felony assault, and alternatively a felony battery with serious, bodily injury, and it
sustained the petition. [¶]...[¶] [T]he [juvenile] Court said that the description of the
injuries is sufficient to fall within [section] 12022.7.” The court continued: “So [the]
Court finds that there is sufficient evidence to find the [section] 245 (a)(1) prior with
[*13]
GBI under [section] 12022.7(a) to be true, and that the Defendant was the individual as
to whom the petition was sustained.” Based on this finding, the court found the prior
strike allegation to be true beyond a reasonable doubt.

A-47

2. There is sufficient proof that the assault was a felony.
Appellant challenges the true finding on the prior strike based on the 2004 assault,
arguing this crime was a misdemeanor. He relies on the fact that the juvenile court
placed him on probation. We are not convinced. As will be explained, there is ample
evidence supporting the trial court’s conclusion that the 2004 assault conviction was a
felony offense.
“The People must prove all elements of an alleged sentence enhancement beyond a
reasonable doubt.” (People v. Miles (2008) 43 Cal.4th 1074, 1082, 77 Cal. Rptr. 3d 270,
183 P.3d 1236.) Certified documents from the record of prior proceedings may be used
to prove a prior conviction allegation. (Id. at p. 1082.) “[T]he trier of fact may draw
reasonable inferences from the record presented.” (Id. at p. 1083.) Unless the document
is rebutted, “such a document, standing alone, is sufficient evidence of the facts it recites
about the nature and circumstances of the prior conviction. [Citation.]”
[*14]
(Ibid.)
In this case, there is sufficient evidence supporting the trial court’s determination that
the 2004 assault conviction was a felony. During the September 20, 2004, jurisdictional
hearing the juvenile judge specifically stated that the offense was a “felony assault likely
to produce great bodily injury.” The juvenile court also found that during the
commission of this crime appellant caused significant and substantial injury within the
meaning of section 12022.7. Section 12022.7 only applies to felonies. The juvenile court’s
actions were sufficient to constitute a declaration that the assault was a felony. (See In
re Manzy W. (1997) 14 Cal.4th 1199, 1204, 60 Cal. Rptr. 2d 889, 930 P.2d 1255.)
Consequently, we uphold the true finding on this strike allegation.
II. Challenges To Evidentiary Rulings.
A-48

A. Werner’s testimony about conversations she overheard was properly
admitted.
1. Facts.
Appellant motioned in limine to preclude the prosecutor from eliciting testimony from
Werner about conversations between Mixon, appellant and Walker that she overheard.
He argued such testimony is inadmissible hearsay and excessively prejudicial pursuant
to Evidence Code section 352.
Werner testified during an evidentiary hearing. She lived
[*15]
with Mixon, appellant and Walker for two to three weeks between January and March
of 2009. During this time, she overheard two conversations between appellant, Mixon
and Walker during which they planned a robbery. Mixon said, “[T]his dude had a lot of
cash on him. He was supposed to have like a 100,000 in cash and a lot of jewelry.” About
a week after these conversations Werner saw appellant, Mixon and Walker enter the
house. Mixon carried a rifle with a scope and stand. Appellant carried a black bag
containing pieces of jewelry. Walker carried a black case containing a handgun.
Appellant said “they had got, like, a lot of jewelry and there wasn’t no cash, that they
just got jewelry.” Walker said “Mixon hit the dude over the head with the gun, and he
said that he should have hit him harder.” Werner heard Walker say that the victims
were an “Arabian dude” and “[h]is mom.”
The trial court ruled that statements made by appellant during these conversations were
admissible as party admissions and statements made by Mixon and Walker were
admissible as statements made by coconspirators. (Evid. Code, §§ 1220, 1223.) Walker’s
comment that Mixon should have hit the victim harder was offered for

A-49

[*16]
a non-hearsay purpose. The trial court did not explicitly rule on appellant’s Evidence
Code section 352 objection.
Werner’s trial testimony was consistent with her testimony during the evidentiary
hearing. At trial, Werner testified that she did not remember any specific statements
made by appellant during the conservations before the robbery. About a week before the
robbery Werner saw appellant in possession of a small gun. She also testified that when
the three men came into the house together Mixon’s shirt was bloodstained. Werner
heard Walker say that “Mixon had hit the Arabian dude with the gun beside the head.”
Werner identified photographs of the stolen jewelry as being identical to pieces of
jewelry that appellant, Mixon and Walker divided between them.
2. Hearsay remarks attributed to Mixon and
Walker are admissible as coconspirator statements.
Generally, hearsay evidence is inadmissible unless an exception applies. (Evid. Code, §
1200.) Evidence Code section 1223 codifies the coconspirator exception to the hearsay
rule. This section provides that evidence is not made inadmissible under the prohibition
against hearsay if the challenged statement was “made by the declarant while
[*17]
participating in a conspiracy to commit a crime or civil wrong and in furtherance of the
objective of that conspiracy” and was made “prior to or during the time that the party
was participating in that conspiracy.” (Evid. Code, § 1223, subds. (a), (b).) Only a prima
facie case of conspiracy must be made to satisfy foundational requirements of this
exception. (People v. Jeffery (1995) 37 Cal.App.4th 209, 215, 43 Cal. Rptr. 2d 526.)
“California courts require that the existence of the conspiracy be established by evidence
independent of the proffered declaration.” (People v. Herrera (2000) 83 Cal.App.4th 46,
A-50

65, 98 Cal. Rptr. 2d 911, fn. omitted.)
A conspiracy is an agreement to commit a crime accompanied by an overt act in
furtherance of the conspiracy. (People v. Herrera, supra, 83 Cal.App.4th at p. 64.) Once
the existence of the conspiracy has been established, the proponent of the hearsay
statement must present evidence proving “‘that the defendant and another person had
the specific intent to agree or conspire to commit an offense, as well as the specific intent
to commit the elements of that offense, together with proof of the commission of an
overt act “by one or more of the parties to such agreement” in furtherance of the
[*18]
conspiracy.’ [Citations.]” (People v. Jurado (2006) 38 Cal.4th 72, 120, 41 Cal. Rptr. 3d
319, 131 P.3d 400.) The conspiracy may be shown by circumstantial evidence. One may
infer the agreement from the defendants’ conduct. (People v. Jeffery, supra, 37
Cal.App.4th at p. 215.)
Appellant contends the prosecution failed to establish a prima facie case that Walker
was a coconspirator. Having carefully examined the record, we conclude that
independent circumstantial evidence and reasonable inferences that may be drawn from
it are sufficient to establish a prima facie case that Walker conspired with appellant and
Mixon to commit the robbery. The existence of a conspiracy may be inferred from the
conduct, relationship, interests, and activities of the participants before and during the
alleged conspiracy. (People v. Rodrigues (1994) 8 Cal.4th 1060, 1135, 36 Cal. Rptr. 2d
235, 885 P.2d 1.) The evidence shows that Walker entered the house together with
appellant and Mixon on the same night that Moushi and his mother were robbed. All
three men were excited and happy. Walker carried a black case that contained a gun.
Mixon’s shirt was bloodstained and he carried a rifle. Walker knew that Mixon hit

A-51

Moushi over the head and that Moushi was “Arabian.”6 Appellant carried
[*19]
a bag containing distinctive jewelry. The jewelry was dumped on a table and divided
among the three men. Werner later saw all three men wearing the same jewelry. From
these facts, one may reasonably conclude that Walker was a participant in a conspiracy
to commit robbery.
The evidence is also sufficient to support a finding that the conversations Werner
overheard took place during the course of the conspiracy and were made in furtherance
of the conspiracy’s objective. The conversations that took place before the robbery were
part of the planning process. The conversation after the robbery took place while the
spoils of the crime were being divvied up.
In sum, the prerequisites necessary apply the coconspirators exception to remarks made
by Mixon and Walker were satisfied. (Evid. Code, § 1223.) Remarks attributed to
appellant during these conversations are admissible as party admissions.7 (Evid. Code,
§ 1220.) For these reasons, the trial court properly
[*20]
admitted this evidence under state law.
Appellant’s related due process claim is equally unpersuasive. “There was no error
6

This testimony was not offered for the truth of the matter stated but to establish Mixon’s state
of mind. Walker’s statement demonstrates he had guilty knowledge about an event that occurred
during the robbery (i.e., Mixon hit Moushi).
7

Appellant did not dispute the portion of the trial court’s ruling that remarks he made during
the conversations were admissible as party admissions.

A-52

under state law, and we have long observed that, ‘[a]s a general matter, the ordinary
rules of evidence do not impermissibly infringe on the accused’s [state or federal
constitutional] right to present a defense.’ [Citation.]” (People v. Robinson (2005) 37
Cal.4th 592, 626-627, 36 Cal. Rptr. 3d 760, 124 P.3d 363.) Consequently, we find that the
challenged ruling did not infringe appellant’s constitutional rights to due process of law
or to present a defense.
B. The court did not err by
limiting impeachment of Werner.
1. Facts.
Werner worked as a prostitute before and after the robbery. Mixon was her pimp around
the time that the robbery occurred. Werner has several misdemeanor convictions and
was in custody when she approached a police officer with information about the robbery.
During the hearing on in limine motions defense counsel stated that he intended to
impeach Werner with her criminal history. The People offered to stipulate to the
following: “Ms.
[*21]
Werner, before, during and after the current event was employed as a prostitute.”
Defense counsel declined the stipulation.
The court appointed counsel for Werner to advise her about her constitutional rights.
After consulting with Werner, her counsel stated that Werner had two misdemeanor
theft convictions, two misdemeanor prostitution convictions and “many prostitution
related charges over the past year that look like they were dropped by the Las Vegas
authorities, but obviously she’s ... potentially on the hook for those.” Werner has not
suffered any felony convictions. Werner’s counsel informed the court that he advised
A-53

Werner to assert her constitutional protection against self-incrimination with respect
to her criminal history.
Defense counsel said, “As to invoking a Fifth Amendment right, if she is going to testify,
then she is going to testify. If she is going to invoke her Fifth Amendment right, then
she is not going to testify.” The prosecutor argued that Werner was only invoking her
constitutional protection on a “collateral issue” and therefore could testify.
An evidentiary hearing was held. Werner invoked her constitutional protection against
self-incrimination as to any
[*22]
criminal activity after August 10, 2010. Through her counsel, she agreed to testify about
“criminal activities of a misdemeanor nature prior to that date.”
Defense counsel argued Werner’s testimony should be excluded pursuant to Evidence
Code section 352. He argued: “Ms. Werner’s testimony is highly inflammatory. I don’t
believe that it is probative beyond that prejudicial effect that would be created by the
Court allowing her to testify regardless of whether or not the Court’s going to allow me
to cross-examine her on her lengthy criminal record.”
Werner’s counsel stated that, based on his research, Werner could invoke her protection
against self-incrimination as to current criminal conduct and still testify.
The court ruled that Werner’s testimony was admissible. It reasoned that Werner’s
criminal history was a collateral matter. It allowed questions about the underlying
criminal misconduct involved in her past convictions for theft and prostitution. Counsel
could not inquire about pending cases.
On direct examination Werner testified that during 2009 she worked as a prostitute. She
A-54

admitted prior acts of prostitution and attempting to possess a stolen vehicle. Werner
testified that
[*23]
she did not receive any benefits from the prosecution in exchange for her testimony. The
District Attorney’s office provided Werner with travel costs, food, lodging and clothing
for her court appearance.
2. Discretion was not abused.
Appellant contends the trial court abused its discretion by allowing Werner to testify
after it refused to allow appellant to impeach her with prior misdemeanor convictions
and charges that were pending in Nevada. We are not convinced.
Admission of misconduct that only amounts to a misdemeanor is subject to the court’s
broad grant of authority under Evidence Code section 352. “[I]f past criminal conduct
amounting to a misdemeanor has some logical bearing upon the veracity of a witness in
a criminal proceeding, that conduct is admissible, subject to the trial court’s discretion,
as ‘relevant’ evidence ....” (People v. Wheeler (1992) 4 Cal.4th 284, 295, 14 Cal. Rptr. 2d
418, 841 P.2d 938.)
“When exercising its discretion under Evidence Code section 352, a court must always
take into account, as applicable, those factors traditionally deemed pertinent in this
area. [Citations.] But additional considerations may apply when evidence other than
felony convictions is offered for impeachment. In general,
[*24]
a misdemeanor—or any other conduct not amounting to a felony—is a less forceful
indicator of immoral character or dishonesty than is a felony. Moreover, impeachment
A-55

evidence other than felony convictions entails problems of proof, unfair surprise, and
moral turpitude evaluation which felony convictions do not present. Hence, courts may
and should consider with particular care whether the admission of such evidence might
involve undue time, confusion, or prejudice which outweighs its probative value.”
(People v. Wheeler, supra, 4 Cal.4th at pp. 296-297, fn. omitted.)
“‘A trial court’s exercise of discretion will not be disturbed unless it appears that the
resulting injury is sufficiently grave to manifest a miscarriage of justice. [Citation.] In
other words, discretion is abused only if the court exceeds the bounds of reason, all of
the circumstances being considered. [Citation.]’ [Citation.]” (People v. Kwolek (1995) 40
Cal.App.4th 1521, 1533, 48 Cal. Rptr. 2d 325.)
Appellant argues that he was entitled to inquire about Werner’s pending prostitution
charges in Nevada to determine if she was receiving lenity in those cases in exchange for
her trial testimony. This factual question was resolved during the pretrial
[*25]
evidentiary hearing. The prosecutor stated for the record that Werner was not receiving
any benefit from her cooperation with the prosecution and no deals had been made with
any witness. Appellant did not make an offer of proof contradicting the prosecutor’s
averment. Appellant did not proffer any evidence indicating that Werner was, in fact,
receiving a benefit from the prosecutor with respect to her pending charges. Appellant’s
failure to make such an offer of proof precludes review of this factual issue on appeal.
(People v. Eid (1994) 31 Cal.App.4th 114, 126, 36 Cal. Rptr. 2d 835.)
During trial, Werner testified that she engaged in prostitution before and after the
robbery. She admitted attempting to possess a stolen vehicle.
Having considered the entirety of the circumstances we conclude that the challenged
evidentiary ruling fell well within the trial court’s broad discretionary authority.
A-56

Additional testimony showing that Werner’s misconduct resulted in misdemeanor
convictions for prostitution and theft and pending prostitution charges in Nevada would
not have significantly affected the jury’s perception of her credibility. They already knew
Werner was a prostitute and a thief. Abuse of discretion
[*26]
has not been shown.
Since there was no state law error, we also reject appellant’s related assertion that the
challenged ruling infringed her constitutional rights to due process and to present a
defense. “‘[A]s a general matter, the ordinary rules of evidence do not impermissibly
infringe on the accused’s [state or federal constitutional] right to present a defense.’
[Citation.]” (People v. Robinson, supra, 37 Cal.4th at pp. 626-627.)
C. The court did not err by limiting impeachment of Moushi.
1. The firearm conviction was
not a crime of moral turpitude.
Moushi suffered a felony conviction for violating former section 12031, subdivision
(a)(2)(F). The trial court ruled that this offense was not a crime of moral turpitude and
prohibited appellant from impeaching Moushi with this conviction.
Appellant argues that former section 12031, subdivision (a)(2)(F) is a crime of moral
turpitude and the trial court erred by concluding it was not. We are not persuaded.
Former section 12031, subdivision (a)(2) may be violated in a variety of circumstances.
Common to all violations of this section is the element of carrying a loaded firearm on
the person or in a vehicle in any public place or upon any

A-57

[*27]
public street. Subdivision (a)(2)(F) prohibits the act of carrying a concealable firearm
when the person is not listed with the Department of Justice as the gun’s registered
owner. (Former § 12031, subd. (a)(2)(F).)
A witness in a criminal trial may be impeached with a prior felony conviction only if the
least adjudicated elements of that felony necessarily involve moral turpitude. (People v.
Castro (1985) 38 Cal.3d 301, 317, 211 Cal. Rptr. 719, 696 P.2d 111.) A crime of moral
turpitude is an offense that reveals a person’s dishonesty, general readiness to do evil,
bad character, or moral depravity. (People v. Bautista (1990) 217 Cal.App.3d 1, 5, 265
Cal. Rptr. 661.) Moral turpitude must be reasonably inferable from the elements of the
offense alone without regard to the facts of a particular circumstance. (People v. White
(1992) 4 Cal.App.4th 1299, 1303, 6 Cal. Rptr. 2d 259.)
Appellant relies on People v. Garrett (1987) 195 Cal.App.3d 795, 799-800, 241 Cal. Rptr.
10 (Garrett) in support of his contention that former section 12031, subdivision (a)(2)(F)
is a crime of moral turpitude. In Garrett, the defendant unsuccessfully argued that the
trial court erred when it permitted him to be impeached with a felony conviction for
conspiracy to possess an illegal weapon in violation
[*28]
of 18 United States Code section 371 and 26 United States Code section 5861(d). These
federal statutes required proof that the defendant and another agreed to possess
unregistered firearms and one of them committed an overt act in furtherance of this
agreement. The Garrett court found these federal offenses were crimes of moral
turpitude because “firearm” as defined in 26 United States Code section 5845 included
various modified or altered guns, such as a modified shotgun, a machine gun and a
grenade. That statute is directed at weapons of crime, violence and destruction that are
normally used for criminal purposes. The statute excludes weapons that are commonly
A-58

possessed for innocent purposes. Since these weapons are generally used for criminal
acts, mere possession of them indicates a readiness to do evil. (People v. Garrett, supra,
195 Cal.App.3d at pp. 798-800.)8Garrett is readily distinguishable from the matter before
us. The least adjudicated
[*29]
elements of a violation of former section 12031, subdivision (a)(2)(F) consist of carrying
a concealable loaded pistol, revolver or other firearm on your person or in a vehicle in
a public place when you are not listed with the Department of Justice as the registered
owner of the firearm. Unlike Garrett, former section 12031, subdivision (a)(2)(F) did not
involve possession of weapons that are generally only used by criminals. The firearms
encompassed by former section 12031 can be carried for self-defense and not for a
criminal purpose. We reject appellant’s assertion that the firearm at issue here is
“illegal.” Violation of former section 12031, subdivision (a)(2)(F) does not require that
the firearm be unregistered; it is only required that the defendant is not the registered
owner of the firearm. The gun at issue in this case was not unregistered. For these
reasons, we uphold the trial court’s determination appellant’s conviction for violating
former section 12031, subdivision (a)(2)(F) is not a crime of moral turpitude.
2. The dismissed marijuana offense
is not a felony conviction.
a. Facts.
During the in limine hearing the court asked the prosecutor if Moushi’s marijuana
offense

8

Case law also holds that possession of a firearm by a felon and possession of an assault weapon
are crimes of moral turpitude. (People v. Robinson (2011) 199 Cal.App.4th 707, 712-715, 131 Cal.
Rptr. 3d 177; People v. Gabriel (2012) 206 Cal.App.4th 450, 456-458, 141 Cal. Rptr. 3d 784.)

A-59

[*30]
was a “prior felony conviction?” The prosecutor replied, “That is not a conviction.... He’s
on DJ for a personal use of cultivating marijuana.” (Health & Saf. Code, § 11358.) The
court ruled that the marijuana offense was not an impeachable offense because it was
not a crime of moral turpitude.
During a subsequent proceeding the prosecutor stated that on November 16, 2006,
Moushi “was put into the DJ program for an 11358 of the Health and Safety Code for
cultivation of marijuana for personal use.” Once again, the court ruled that this was not
a crime of moral turpitude and, therefore, was not an impeachable conviction. Defense
counsel stated, “And I understand the Court’s analysis. I would just for the record
respectfully object.” Defense counsel did not specify the basis of his objection.
The prosecutor stated during trial that he was approached by the deputy district
attorney who was handling Moushi’s marijuana case. The deputy district attorney asked
the prosecutor in this case if he “had any concerns about Mr. Moushi’s active case.” The
prosecutor reported that he told him “to handle it as he would any other case, that we
have made no deals with Mr. Moushi, that Mr. Moushi’s case
[*31]
should be handled independently of our case and that I affirmatively did not care what
happened to Mr. Moushi’s other criminal case.”
During the tenth day of trial the court asked the prosecutor, “Where are we on his DJ
case? I think that was never — well, first of all, it was dismissed so it’s not a conviction
anymore, and it was never a crime of moral turpitude.” Defense counsel explained that
Moushi entered a plea to a felony charge of violating Health and Safety Code section
11358 (cultivation of marijuana) and was referred to counseling. On August 8, 2011, it
was “put ... over for deferred judgment” and on August 17, 2011, the case was dismissed.
A-60

Moushi’s attorney and the prosecutor unequivocally declared “that there are absolutely
no deals, no promises” made between Moushi and the District Attorney’s Office with
respect to Moushi’s testimony in this case.
b. The marijuana offense was not a felony conviction.
Appellant contends that he was entitled to impeach Moushi with a prior conviction for
cultivating marijuana for personal use in violation of Health and Safety Code section
11358 because it is a felony crime of moral turpitude. We reject appellant’s argument
because he did not
[*32]
prove that the marijuana offense was a felony conviction. The record affirmatively shows
that Moushi was placed on deferred judgment for this offense and it was eventually
dismissed. Since the marijuana cultivation offense did not result in a felony conviction,
the trial court did not err by ruling that Moushi could not be impeached with it.9
3. The trial court did not abuse its discretion
by excluding impeachment with Moushi’s
custody status and possible recent crimes.

a. Facts
Moushi testified in an evidentiary hearing that he was taken into federal custody on July
26, 2011, by Immigration and Customs Enforcement officers (INS hold). Deportation
proceedings based on his prior firearm conviction had commenced.
9

Appellant did not argue below that he should be permitted to question Moushi about the
underlying criminal conduct that resulted in the dismissed case.

A-61

Also, Moushi told an investigator for the district attorney and the prosecutor that “prior
to this robbery he had dealt marijuana.” The prosecutor stated that he did not think
Moushi had any pending charges against him.
Moushi was appointed counsel. After consulting with him, Moushi asserted his
constitutional protection against self-incrimination
[*33]
and refused to answer any questions pertaining to marijuana sales.
Defense counsel argued that “the credibility of the witness does spill over into whether
or not the evidence that is presented is admissible.”
The court determined that the INS hold was not relevant: “I think the fact that he may
have run afoul of some condition of his entry is not necessarily morally turpitudinous....
He may or may not be charged with other things, but I think you can’t get into those
other than felony convictions or crimes of moral turpitude.”
Appellant requested a continuance to investigate the circumstances surrounding
Moushi’s INS hold, stating that it was necessary “to have a fair hearing and have due
process to explore all things that are relevant to this case.” The prosecutor and counsel
for Moushi stated that they did not have any additional information with respect to the
INS hold and deportation proceedings. The court denied the request for a continuance.
Before Moushi testified, the prosecutor gave defense counsel a corrected rap sheet. In
response, appellant requested a continuance to investigate Moushi’s criminal history.
This request was denied. Defense counsel “suggest[ed] to the court that
[*34]

A-62

the treatment which Mr. Moushi received in this case was extremely deferential to his
situation and I would suggest that although the prosecution has continued to assert they
did not do anything for Mr. Moushi for his testimony in this case, ..., in fact, he has been
given deferential treatment for his cooperation with the prosecution.” The prosecutor
reiterated that he did not participate in the dismissed marijuana cultivation case and
that he “certainly made no deals with” Moushi.
Moushi’s attorney testified that he has been representing Moushi in the marijuana case
since 2007. He is not aware of any deal with the district attorney’s office and does not
“believe there was one.”
The trial court ruled “So there are no crimes of moral turpitude, and no deals. So there
is no criminal history to impeach Mr. Moushi with. [¶] We already talked about the
immigration situation, but that is not relevant to his credibility.”
b. It was not error to preclude impeachment of Moushi
with his custody status and deportation proceedings.
Appellant argues that the trial court erred by prohibiting impeachment of Moushi with
his current custody status and pending deportation proceedings. We are not persuaded.
[*35]
The trial court did not abuse its discretion in excluding evidence that Moushi currently
was in INS custody during the pendency of deportation proceedings. The INS hold and
deportation proceedings are based solely on the firearm conviction, which we have
already determined is not a crime of moral turpitude.
c. It was not error to preclude
impeachment with any recent crimes.

A-63

Moushi asserted his constitutional protection against self-incrimination with respect to
any recent marijuana sales. Appellant did not proffer any evidence pertaining to such
recent crimes apart from statements Moushi allegedly made to the prosecutor’s
investigator. The trial court’s decision to allow Moushi to testify after he asserted his
constitutional protection against self-incrimination was not an abuse of discretion. Any
such criminal activities occurred years after the robbery and are not directly or
indirectly related to it. Appellant did not proffer any evidence that Moushi was charged
with any recent crimes. Appellant has not persuasively shown that the trial court was
obliged to exclude Moushi’s testimony in its entirety because he refused to testify about
any recent criminal conduct.
4. There is no evidence
[*36]
that the prosecutor made any deals with Moushi.
Finally, appellant did not proffer any evidence tending to prove that Moushi received
any favorable treatment based on his expected testimony in this trial. The prosecutor
repeatedly informed the court that he had not participated in any way in the dismissal
of the marijuana cultivation charge. Moushi’s counsel also stated that there were no
deals or promises. Appellant did not make an offer of proof or set forth any evidence
contradicting the prosecutor’s averments on this topic. Appellant’s contention that the
prosecutor made a deal with Moushi in exchange for their testimony is wholly
speculative.
For all of these reasons, we hold that the trial court did not abuse its discretion when
it prohibited impeachment of Moushi with his prior convictions, INS hold and
deportation proceedings and any recent crimes.
D. Allowing Dr. Fraser to be impeached
A-64

with a judicial finding was proper.
1. Facts.
Dr. Scott E. Fraser was retained by the defense as an expert on eyewitness
identification. Appellant filed an in limine motion urging the court to exercise its
discretion pursuant to Evidence Code section 352 to prohibit impeachment of Dr. Fraser
with
[*37]
a judicial finding made in 2001 by Los Angeles Superior Court Judge Powers that Dr.
Fraser made material misrepresentations to the court in connection with the “Noriega
case.”
The prosecutor proffered written materials about the judicial finding. The documents
included the minute order containing the judicial finding and a transcript of a telephone
conversation between Dr. Fraser and Mike Kraut, who was a prosecutor in the Noriega
case. Dr. Fraser reported to Judge Powers that Kraut attempted to intimidate him by
demanding that he bring five years of personal financial records to court under threat
of sanction. Judge Powers found that this was not true. He made the following written
finding, as set forth in the minute order: “Court finds Dr. Fraser made false misleading
statements under oath as a material issue [about the conversation with Mr. Kraut]
during his testimony.” Appellant objected to these written materials, arguing they
lacked authentication and foundation.
Dr. Fraser testified at an evidentiary hearing that he recognized the minute order but
not the documents. He could not vouch for the transcript’s authenticity or
thoroughness.
The court stated that he was “not sure I believe
A-65

[*38]
what Dr. Fraser said here in court about not knowing what these documents were.”
Nonetheless, it excluded all of the documents, except the minute order. The court ruled
the minute order was not admissible but it could be used to refresh Dr. Fraser’s
recollection. The court ruled that Dr. Fraser could be impeached with the judicial
finding but it would only allow the questions that the prosecutor asked during the
evidentiary hearing.
During cross-examination Dr. Fraser testified that in July of 2001 he had a telephone
conversation with Mike Kraut. He subsequently told Judge Powers, while under oath,
that Kraut “insisted on me bringing five years of my personal financial records to court
tomorrow” or there “would be penalties or consequences.” Dr. Fraser informed Judge
Powers that he believed Kraut was trying to intimidate him. Dr. Fraser replied
affirmatively to the prosecutor’s question “And a judge found in a later hearing that you
had made material misrepresentations to the court. Right?” The prosecutor did not ask
any follow-up questions.
2. Impeachment with the judicial finding
was not an abuse of discretion.
A witness may be impeached with any prior conduct involving moral turpitude
[*39]
whether or not it results in a felony conviction, subject to the trial court’s exercise of
discretion under Evidence Code section 352. (People v. Wheeler, supra, 4 Cal.4th at pp.
295-296.) A trial court has broad discretion in ruling on an Evidence Code section 352
objection to admission of testimony. “A trial court’s exercise of discretion in admitting
or excluding evidence is reviewable for abuse [citation] and will not be disturbed except
on a showing the trial court exercised its discretion in an arbitrary, capricious, or
A-66

patently absurd manner that resulted in a manifest miscarriage of justice [citation].”
(People v. Rodriguez (1999) 20 Cal.4th 1, 9-10, 82 Cal. Rptr. 2d 413, 971 P.2d 618.)
The trial court’s decision permitting the prosecutor to impeach Dr. Fraser with the
judicial finding was not an abuse of discretion. The court was aware of the applicable
standard and it balanced the probative value of this evidence against factors such as the
age of the incident and the fact that it did not directly relate to appellant’s guilt or
innocence of the charged crimes. It characterized the decision whether to permit
impeachment of Dr. Fraser with the judicial finding as a “close call.”
Dr. Fraser’s character was placed
[*40]
into evidence when he testified about his exemplary reputation in the fields of
psychology and eyewitness memory, his experience as an expert witness and awards he
has won. The judicial finding was highly probative on the issues of Dr. Fraser’s honesty
and veracity during court proceedings. Further, testimony before the jury on this topic
was brief, requiring only two pages of the reporter’s transcript. This testimony was not
inflammatory or unfairly prejudicial. The prosecutor did not refer to the transcript or
other documents during his questions. He did not refresh Dr. Fraser’s recollection with
the minute order memorializing the judicial finding. For all of these reasons we uphold
the trial court’s discretionary ruling.10
E.
10

Appellant also complains that the prosecutor improperly asked if the New School for Social
Research, where he was employed as an instructor during the 1970’s, “was founded by
Communist sympathizers in 1919?” Dr. Fraser testified that such a characterization “ is a gross
misreading” of the school’s history. No objection was interposed to this exchange during trial.
Consequently, appellant’s complaint was not preserved for appellate review. (Evid. Code, § 353,
subd. (a).)

A-67

[*41]
Confrontation clause issue was forfeited and
the related ineffective assistance argument fails.
1. Appellant did not object on this ground at trial.
Appellant argues that restrictions placed on cross-examination of Werner and Moushi
violated his state and federal constitutional rights to confront witnesses and present a
defense. (U.S. Const., 5th, 6th and 14th Amends.; Cal. Const., art. I, § 15.) Appellant
further asserts that a confrontation clause objection would have been futile. Respondent
argues that the confrontation clause issue was not forfeited “despite the fact that
[appellant] did not object on these specific constitutional claims at trial.” As will be
explained, a confrontation clause objection was neither directly nor impliedly advanced
by defense counsel during Werner’s or Moushi’s testimony. The trial court did not
consider or decide the confrontation clause challenge that is now raised for the first
time. It would not have been a futile act for appellant to have raised this objection
during trial proceedings. Consequently, this issue was not preserved for appellate
review.
No procedural principle is more familiar than the forfeiture rule. A judgment shall not
be reversed
[*42]
for an evidentiary error unless a timely objection was interposed on the same ground
that is asserted on appeal. (Evid. Code, § 353, subd. (a).) The contemporaneous objection
rule applies to claims of state and federal constitutional error. (People v. Daniels (2009)
176 Cal.App.4th 304, 320, fn. 10, 97 Cal. Rptr. 3d 659.) The objection requirement is
necessary because a contrary rule “would deprive the People of the opportunity to cure
the defect at trial and would ‘permit the defendant to gamble on an acquittal at his trial
A-68

secure in the knowledge that a conviction would be reversed on appeal.’ [Citation.]”
(People v. Rogers (1978) 21 Cal.3d 542, 548, 146 Cal. Rptr. 732, 579 P.2d 1048.)
“Specificity is required both to enable the court to make an informed ruling on the
motion or objection and to enable the party proffering the evidence to cure the defect in
the evidence.” (People v. Mattson (1990) 50 Cal.3d 826, 854, 268 Cal. Rptr. 802, 789 P.2d
983.) A claim that the introduction of evidence violated the defendant’s rights under the
confrontation clause must be specifically presented to the trial court for decision or it
is forfeited on appeal. (Melendez-Diaz v. Massachusetts (2009) 557 U.S. 305, 327, 314,
fn. 3, 129 S. Ct. 2527, 174 L. Ed. 2d 314; People v. Lewis and Oliver (2006) 39 Cal.4th
970, 1028, fn. 19, 47 Cal. Rptr. 3d 467, 140 P.3d 775;
[*43]
People v. Burgener (2003) 29 Cal.4th 833, 869, 129 Cal. Rptr. 2d 747, 62 P.3d 1; People
v. Chaney (2007) 148 Cal.App.4th 772, 779-780, 56 Cal. Rptr. 3d 128.) An Evidence Code
section 352 or hearsay objection does not preserve a confrontation clause claim. (People
v. Rowland (1992) 4 Cal.4th 238, 273, fn. 14, 14 Cal. Rptr. 2d 377, 841 P.2d 897; People
v. Catlin (2001) 26 Cal.4th 81, 138, fn. 14, 109 Cal. Rptr. 2d 31, 26 P.3d 357.)
We have carefully examined the lengthy trial record. At no point did defense counsel
make any comments that can fairly be said to have raised a confrontation clause
objection in connection with impeachment of Werner or Moushi. Respondent’s argument
that defense counsel mentioned “credibility” and that word is essentially
interchangeable with “confrontation” is patently absurd.
Appellant’s reliance on the futility exception to the forfeiture rule is unavailing. The
record affirmatively shows that the trial judge carefully listened to all legal points raised
by counsel and gave them ample opportunity to articulate their objections. Nothing in
the record indicates that if appellant had objected on confrontation clause grounds, the
trial judge would not have considered the issue and ruled on it in an appropriate and
A-69

even-handed manner. (People v. Blacksher (2011) 52 Cal.4th 769, 823, 130 Cal. Rptr. 3d
191, 259 P.3d 370.)
2.
[*44]
The related ineffective assistance
claim fails for lack of prejudice.
Appellant argues that if the confrontation clause issue was forfeited, then defense
counsel was ineffective because he did not object on this ground at trial.
To prevail on an ineffective assistance of counsel claim, appellant bears the burden of
establishing deficient performance under an objective standard of professional
reasonableness and prejudice under a test of reasonable probability of a more favorable
outcome. (People v. Hernandez (2004) 33 Cal.4th 1040, 1052-1053, 16 Cal. Rptr. 3d 880,
94 P.3d 1080.)
When an ineffective assistance claim can be resolved solely on the basis of lack of
prejudice, it is unnecessary to determine whether counsel’s performance was objectively
deficient. (In re Jackson (1992) 3 Cal.4th 578, 604, 11 Cal. Rptr. 2d 531, 835 P.2d 371.)
This is such a case. It is not reasonably likely that the jury would have returned a more
favorable verdict if the court had permitted appellant to impeach Werner and Moushi
with every aspect of their criminal histories.
The jury knew that Werner worked as a prostitute and had attempted to possess a stolen
vehicle. Further information about Werner’s recent prostitution activities would have
been cumulative. The recent prostitution
[*45]
A-70

charges were filed in another state. There is no evidence that her testimony in this case
would have any impact on the out-of-state charges. We do not believe that the jury’s
impression of Werner’s credibility, veracity or memory would have been significantly
altered if it had received additional information about her criminal history and pending
out-of-state prostitution charges.
Turning to Moushi, there is no evidence indicating that he had a motive to falsely
identify appellant as one of the robbers. There is no evidence indicating that he colluded
with the robbers for a nefarious purpose. There is no evidence that Moushi received any
benefit from the prosecutor in exchange for his testimony. Moushi was one of the victims
in this case. He is not similarly situated to a felon who participated in a crime and then
agreed to testify against the other perpetrators in exchange for lesser punishment or
immunity. We do not believe that knowledge of Moushi’s criminal history and pending
immigration proceedings would have significantly impacted the jury’s assessment of his
credibility, veracity or memory.
Based on the foregoing, we conclude that appellant did not establish prejudice and reject
[*46]
the ineffective assistance claim on this basis.
III. Instructional Issues.
A. The instruction on eyewitness identification
is legally correct and sufficient.
1. CALCRIM No. 315 is not misleading.
The jury was instructed on evaluation of eyewitness identification with CALCRIM No.
315. This instruction lists 16 criteria jurors may use in evaluating eyewitness credibility,
A-71

including “[h]ow certain was the witness when he or she made an identification?”
CALJIC No. 2.92 is the predecessor to CALCRIM No. 315. CALJIC No. 2.92 also set
forth criteria that may be used in assessing eyewitness testimony, including a “level of
certainty” criterion. (CALJIC No. 2.92 (5th ed. 1988); People v. Ward (2005) 36 Cal.4th
186, 213, 30 Cal. Rptr. 3d 464, 114 P.3d 717.)
Appellant argues that “scientific research has disproven the notion that witness
certainty is a meaningful indicator of reliability.” Therefore, “instructing jurors that
confidence is an indicator of reliability amounts to instructing them that a false
proposition is true. This ... contravenes the Constitution’s guarantee of due process.”
[*47]
As we will explain, this contention has been rejected in several appellate decisions and
we discern no basis to reject their reasoning or result.
During trial proceedings appellant did not object to use of CALCRIM No. 315 or request
modification of the instruction. Consequently, acceptance of appellant’s argument
requires us to hold that the trial court had a sua sponte obligation to modify CALCRIM
No. 315 by excising the witness certainty factor. Yet, our Supreme Court has expressly
held there is no sua sponte duty to give or to modify CALJIC No. 2.92. (People v. Ward,
supra, 36 Cal.4th at pp. 213-214.) In Ward, the defendant argued, in relevant part, that
the “level of certainty” factor should have been eliminated from CALJIC No. 2.92. Our
Supreme Court unanimously held that “defendant never requested the additions he now
asserts should have been given; and we find no basis for imposing a sua sponte duty to
modify CALJIC No. 2.92 as now asserted.” (Ward, supra, at p. 213; see also People v.
Wright (1988) 45 Cal.3d 1126, 1141, 248 Cal. Rptr. 600, 755 P.2d 1049 [upheld list of
factors in CALJIC No. 2.92 ].) We are bound to follow the decisions of our state’s
Supreme Court. (Auto Equity Sales, Inc. v. Superior Court (1962) 57 Cal.2d 450, 455, 20
Cal. Rptr. 321, 369 P.2d 937.)

A-72

Several
[*48]
courts, including the California Supreme Court, have considered and rejected challenges
to inclusion of “level of certainty” as a criteria the jury may consider when assessing
eyewitness identification. People v. Johnson (1992) 3 Cal.4th 1183, 14 Cal. Rptr. 2d 702,
842 P.2d 1, held the court did not err in instructing on the certainty factor even where
an expert had testified without contradiction that a witness’s confidence in an
identification does not correlate with the accuracy of the identification. (Id. at pp. 12311232.) People v. Gaglione (1994) 26 Cal.App.4th 1291, 1301-1303, 32 Cal. Rptr. 2d 169
and People v. Sullivan (2007) 151 Cal.App.4th 524, 561-562, 59 Cal. Rptr. 3d 876,
rejected arguments that the certainty factor erroneously reinforces a misconception that
a witness’s confidence in an identification correlates with its accuracy.
We are persuaded by this line of authority and find it applicable to CALCRIM No. 315.
Inclusion of a witness certainty factor in CALCRIM No. 315 does not require a jury to
consider a witness’s certainty or uncertainty. It does not make any correlation between
level of certainty and accuracy. It does not imply that witnesses are more believable if
they are certain of their identification. It does not misinform the jury
[*49]
that confidence is an indicator of reliability. Consequently, we uphold CALCRIM No. 315
and find that appellant’s due process rights were not infringed by inclusion of this
pattern instruction in the jury charge.
2. Counsel was not deficient because he did not
request a pinpoint instruction on witness certainty.
In a related claim, appellant argues that if we uphold CALCRIM No. 315, then defense
A-73

counsel was ineffective because he did not ask the jury to be given the following pinpoint
instruction: “[W]itness confidence may not be an indicator of the accuracy of the
identification.”10
As previously stated, the defendant must show counsel’s performance fell below an
objective standard of reasonableness under prevailing
[*50]
professional norms and the deficient performance resulted in prejudice. (Strickland v.
Washington (1984) 466 U.S. 668, 688, 104 S. Ct. 2052, 80 L. Ed. 2d 674.) To establish
prejudice, “[t]he defendant must show there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.”
(Id. at p. 694.)
In determining whether defense counsel’s performance was deficient, we accord great
deference to counsel’s tactical decisions and reverse only if the record affirmatively
discloses no rational tactical purpose for counsel’s act or omission. (People v. Stanley
(2006) 39 Cal.4th 913, 954, 47 Cal. Rptr. 3d 420, 140 P.3d 736.) If the record fails to
show why counsel acted or failed to act, the claim of ineffective assistance must be
rejected on appeal unless counsel was asked for an explanation and failed to provide one,
or unless there simply could be no satisfactory explanation. (People v. Cunningham
(2001) 25 Cal.4th 926, 1003, 108 Cal. Rptr. 2d 291, 25 P.3d 519.)
“When counsel focuses on some issues to the exclusion of others, there is a strong
10

Appellant’s argument impliedly recognizes that he could not directly challenge the trial court’s
failure to give this pinpoint instruction because no one requested amplification of CALCRIM No.
315 at trial. “‘Generally, a party may not complain on appeal that an instruction correct in law
and responsive to the evidence was too general or incomplete unless the party has requested
appropriate clarifying or amplifying language.’” (People v. Hudson (2006) 38 Cal.4th 1002, 10111012, 44 Cal. Rptr. 3d 632, 136 P.3d 168.)

A-74

presumption that he did so for tactical reasons rather than through sheer neglect.”
(Yarborough v. Gentry (2003) 540 U.S. 1, 8, 124 S. Ct. 1, 157 L. Ed. 2d 1.) Even debatable
trial tactics do not constitute ineffective
[*51]
assistance of counsel. (People v. Weaver (2001) 26 Cal.4th 876, 928, 111 Cal. Rptr. 2d 2,
29 P.3d 103.) Defendants are not guaranteed “perfect representation, only a
‘”reasonably competent attorney.’ [Citations.]” (Harrington v. Richter (2011) 562 U.S.
86 [131 S.Ct. 770, 791, 178 L. Ed. 2d 624].)
A trial court has the duty to instruct on the general principles of law relevant to the
issues presented by the evidence. (People v. Breverman (1998) 19 Cal.4th 142, 154, 77
Cal. Rptr. 2d 870, 960 P.2d 1094.) Upon request, a defendant is entitled to
nonargumentative instructions that pinpoint a defense theory. (People v. Webster (1991)
54 Cal.3d 411, 443, 285 Cal. Rptr. 31, 814 P.2d 1273.) Pinpoint instructions need not be
given sua sponte. (People v. Hughes (2002) 27 Cal.4th 287, 361, 116 Cal. Rptr. 2d 401,
39 P.3d 432.)
Having carefully examined the record, we conclude that appellant’s suggested pinpoint
instruction on witness certainty is a matter that falls within the wide range of trial
tactics. No California case has held that supplemental instruction on the topic of
certainty is necessary. Defense counsel reasonably could have decided that CALCRIM
No. 315 adequately instructed the jurors on the topic of witness identification and,
therefore, a pinpoint instruction on eyewitness certainty was unnecessary. (See, e.g.,
People v. Wright, supra, 45 Cal.3d at p. 1153
[*52]
[a special cautionary instruction on eyewitness identification unnecessary and improper
because CALJIC No. 2.92 properly highlights relevant factors]; People v. McCowan
A-75

(1978) 85 Cal.App.3d 675, 679-680, 149 Cal. Rptr. 611 [cautionary instruction on
eyewitness identification rejected because it did not state a principle of law and singled
out one witness].)
We agree with the Wright court’s conclusion with respect to CALJIC No. 2.92 that
supplemental instruction on evaluation of eyewitness testimony is unnecessary because
“the eyewitness ‘factors’ instruction provides the jury with sufficient means to evaluate
eyewitness identification testimony and alerts jurors to the factors that may affect
eyewitness identifications. In addition, expert witness testimony may be used when
appropriate to further elucidate the effect of the factors listed.” (People v. Wright, supra,
45 Cal.3d at p. 1154.) CALCRIM No. 315 adequately instructed the jury on the
evaluation of eyewitness testimony. Further pinpoint instruction was not necessary.
Since appellant has not established deficient performance, this ineffective assistance
claim fails.
B. Omission of CALCRIM Nos. 416
and 418 was not prejudicial.
The court admitted hearsay
[*53]
statements made by Werner about conversations she overheard between appellant,
Mixon and Walker. Statements made by Mixon and Walker and recounted by Werner
were admitted pursuant to the coconspirators exception to the hearsay rule that is
codified in Evidence Code section 1223. The court did not instruct the jury with
CALCRIM No. 416 (evidence of an uncharged conspiracy) or CALCRIM No. 418
(coconspirator’s statements). Appellant argues that his constitutional due process rights
were infringed by the trial court’s failure to give these instructions sua sponte.

A-76

Respondent argues appellant forfeited this issue by failing to object to the absence of
CALCRIM Nos. 416 and 418. This contention fails because the trial court must instruct,
even without request, on the general principles of law relevant to and governing the
case. Consequently, omission of a required instruction is reviewable on appeal even
when the defect was not brought to the court’s attention during trial. (People v. Sedeno
(1974) 10 Cal.3d 703, 715-716, 112 Cal. Rptr. 1, 518 P.2d 913.)
Assuming for purposes of this discussion only that the trial court had a sua sponte
obligation to instruct with CALCRIM Nos. 416 and 418, the omission of these
instructions
[*54]
from the jury charge is harmless. People v. Jeffery, supra, 37 Cal.App.4th 209, held that
the failure to instruct with CALJIC No. 3.11, which sets forth the requirement that
testimony of an accomplice must be corroborated, was harmless error because there was
sufficient corroboration of the accomplice’s testimony in the trial record. (Jeffery, supra,
at p. 218.)
Likewise, in this case the record contains ample evidence corroborating the statements
Werner overheard. (See Discussion, part II(A)(1).) Further, the evidence proving
appellant’s guilt is very strong. Both victims identified appellant as one of the robbers
at trial. Werner testified that when appellant returned to the house on the evening of
the robbery he carried a bag containing jewelry, which the three men divided among
themselves. This jewelry matched photographs of jewelry that was stolen from Moushi.
Under any standard of review, there is no possibility of a more favorable verdict if the
jury had been instructed with CALCRIM Nos. 416 and 418.
C. CALCRIM No. 335 does not direct a guilty verdict.
The court gave CALCRIM No. 335, which instructs the jury that accomplice testimony
A-77

should be viewed with distrust and requires
[*55]
corroboration. Appellant complains about the portion of this instruction providing: “If
the crimes of robbery or assault were committed, then Lovelle Mixon and Johnnie
Walker, also known as Bam, were accomplices to those crimes. You may not convict the
defendant of robbery or assault based on the statement of an accomplice alone.”11
Appellant argues that by informing the jurors that Walker and Mixon were accomplices
the instruction “acts to inform the jury that the defendant was the perpetrator and thus
directs a verdict against the defendant.” This argument is not persuasive.
CALCRIM No. 335 instructs the jury that statements allegedly made by Mixon and
Walker require corroboration. It cautions “the jury against blithe acceptance of
testimony by an accomplice. CALCRIM No. 335 instructed the jury to require supporting
testimony that was independent of the accomplice’s
[*56]
statement or testimony.” (People v. Tuggles, supra, 179 Cal.App.4th at p. 365.) The
instruction did not direct the jury that appellant was necessarily a coconspirator or
guilty of the robbery because Mixon and Walker were accomplices to the robbery and
assault. This is demonstrated by the first word of the contested instructional section,
which is “If.” The instruction did not inform the jury that Mixon or Walker were
accomplices to crimes that were committed by appellant. Also, in determining whether
an instruction is ambiguous, it must be read holistically with the rest of the jury charge.
11

Appellant’s failure to object to this instruction during trial did not result in forfeiture of the
issue because “‘a defendant need not object to preserve a challenge to an instruction that
incorrectly states the law and affects his or her substantial rights.’ [Citation.]” (People v. Tuggles
(2009) 179 Cal.App.4th 339, 364, 100 Cal. Rptr. 3d 820.)

A-78

(People v. Kainzrants (1996) 45 Cal.App.4th 1068, 1075, 53 Cal. Rptr. 2d 207.) We agree
with respondent that when CALCRIM No. 335 is read together with the rest of the jury
charge there was no modification of the applicable burden of proof and no elimination
of any relevant issues from jury consideration. (Ibid.)12
IV. Challenges to Sentencing.
A. Facts.
The
[*57]
probation report reflects that appellant was 25 years old when he was sentenced on
December 21, 2011. His criminality began at age 14 with a juvenile referral for theft; he
was ordered to complete 20 hours of community service. Six months later he had
another juvenile referral for theft; four additional hours of community service were
ordered. Appellant committed his first felony, burglary, in 2002 and was placed in
juvenile hall for 25 days. A few months later he committed another theft which was soon
followed by another burglary; he spent 86 days and then 120 days in juvenile hall for
these crimes. In October 2004 he committed a burglary during which he inflicted great
bodily injury on a victim; he was placed in juvenile hall until his 18th birthday. A year
later he committed another burglary and vandalism. Appellant suffered his first adult
conviction for vandalism in 2005 and was placed on probation for three years and
ordered to serve three days in jail. Appellant committed his current crimes soon after
completing this probationary period.
The probation report reflects that appellant does not have a significant employment
history or possess any marketable skills. Appellant’s education
12

Appellant contends the cumulative effect of the claimed errors requires reversal. However, the
only identified error was the trial court’s failure to instruct with CALCRIM Nos. 416 and 418.
Since there was only one error, there are no cumulative effects to consider.

A-79

[*58]
is minimal; seventh grade was the final grade he completed. Appellant failed to complete
a vocational course in heating and air conditioning. He reportedly obtained a GED and
completed six classes at a local junior college. He has two children with different
mothers. Appellant reported that there is not a custody or child support order in place
for either child. He is reportedly engaged to a third woman
Immediately before sentencing appellant, the court heard and denied his motions for a
new trial and to dismiss the prior strikes in the interests of justice pursuant to People
v. Superior Court (Romero) (1996) 13 Cal.4th 497, 53 Cal. Rptr. 2d 789, 917 P.2d 628
(Romero). With respect to the Romero motion, the court reasoned:
“... I just want to point out that I am familiar with the facts of [the prior] cases. True,
Mr. Daniels was a juvenile at the time he committed the assault, but he had two strikes
before he committed these cri[m]es. There was not a great time gap between those
offenses and the ones in this case. You say he has a minimal adult record, but then he
had relatively minimal time as an adult. His birth date is '86; that makes him 25 at this
point, and the crimes were a couple of years ago. So it wasn’t very
[*59]
long that he was officially an adult; so the lack of criminal record, lack of criminal
history, I think, is not as relevant in this case as it might be. [¶] My concern is
apparently he didn’t learn from the two strike convictions that he previously suffered.
Like I said, it hasn’t been that long. He fell in with Mr. Mixon, committed very serious
crimes here, and I think there is just absolutely no justification for striking the priors;
so the Romero motion will be denied.”
Thereafter, the court sentenced appellant on counts 1 and 2 to two concurrent terms of
35 years to life (25 years pursuant to the three strikes law plus a consecutive 10 year
A-80

term for the firearm enhancement). It stayed the punishment imposed for count 3
pursuant to section 654.
B. Denial of the Romero motion
was not an abuse of discretion.
In ruling on a motion to strike a prior conviction allegation the court must conduct a
fact-based inquiry to determine whether the defendant falls outside the spirit of the
three strikes law. Relevant factors include the nature of the present offense, the
defendant’s prior criminal history, the defendant’s background, character and prospects
as well as other individualized considerations.
[*60]
(People v. Williams (1998) 17 Cal.4th 148, 161, 69 Cal. Rptr. 2d 917, 948 P.2d 429.) A
court’s refusal to dismiss or strike a prior conviction allegation is subject to review under
the deferential abuse of discretion standard. (People v. Carmony (2004) 33 Cal.4th 367,
374, 14 Cal. Rptr. 3d 880, 92 P.3d 369.) The burden is on the party attacking the
sentence to demonstrate that the lower court’s decision was “so irrational or arbitrary
that no reasonable person could agree with it.” (Id. at p. 377.)
Appellant contends that the trial court had a “mistaken view of its discretionary power
under section 1385” and “relied on the wrong standard in exercising its discretion,
because it focused on appellant’s criminal history.” Not so. The court is presumed to
have considered all relevant criteria unless the record affirmatively shows otherwise.
(People v. Superior Court (Du) (1992) 5 Cal.App.4th 822, 836-837, 7 Cal. Rptr. 2d 177.)
[*61]
Here, the trial court indicated that it read and considered appellant’s motion papers,
which included factors in addition to appellant’s criminal history. The record before us
A-81

adequately demonstrates that the trial court applied the correct legal standard and made
an individualized decision based on the particular circumstances of the offense and the
offender.
The record also supports the trial court’s exercise of discretion. Appellant has been
committing theft related crimes since he was 14 years old. Home monitoring, probation,
short terms of incarceration in juvenile hall and adult jail all failed to extinguish
appellant’s criminality. The current convictions are appellant’s third serious crime in
less than 10 years. Appellant committed the home invasion shortly after completing a
three-year adult probationary period. His criminality is escalating; the home invasion
robbery and assault are significantly more violent and serious than his prior crimes.
Appellant was armed with a handgun, which he used as a cudgel. There is nothing in
appellant’s background or social history that removes him from the scope of the three
strikes law. Appellant lacks any substantial work history, educational
[*62]
accomplishments or vocational training. There is no indication that he financially
supports his two children or is an active participant in their lives. Appellant’s “conduct
as a whole was a strong indication of unwillingness or inability to comply with the law.
It is clear from the record that prior rehabilitative efforts have been unsuccessful for
[him].” (People v. Philpot (2004) 122 Cal.App.4th 893, 906, 19 Cal. Rptr. 3d 280.)
Appellant does not fall outside the spirit of the three strikes law. Therefore, we uphold
denial of the Romero motion as a proper exercise of judicial discretion. (Id. at p. 907.)
C. Use of appellant’s juvenile adjudications as strikes
does not infringe his constitutional right to trial by jury.
Appellant argues that use of juvenile adjudications as the basis for prior strike
allegations abridges his constitutional right to a jury trial. He acknowledges that the
California Supreme Court rejected this contention in People v. Nguyen (2009) 46 Cal.4th
A-82

1007, 1028, 95 Cal. Rptr. 3d 615, 209 P.3d 946, but “submits that Nguyen was wrongly
decided.” Appellant has done little more than register his disagreement with Nguyen.
We are bound to follow the decisions of our Supreme Court (Auto Equity Sales, Inc. v.
Supreme Court, supra, 57 Cal.2d at p. 455),
[*63]
and reject appellant’s argument on this basis.
DISPOSITION
The judgment is affirmed.
LEVY, Acting P.J. WE CONCUR: DETJEN, J. LaPORTE, Pro Tem J.11
End of Document

11

Judge of the Superior Court of Kings County, assigned by the Chief Justice pursuant to article
VI, section 6 of the California Constitution.

A-83

3. State statutes.
Evidence Code section 1223: Evidence of a statement offered against a party is not
made inadmissible by the hearsay rule if: (a) The statement was made by the declarant
while participating in a conspiracy to commit a crime or civil wrong and in furtherance
of the objective of that conspiracy; (b) The statement was made prior to or during the
time that the party was participating in that conspiracy; and (c) The evidence is offered
either after admission of evidence sufficient to sustain a finding of the facts specified in
subdivisions (a) and (b) or, in the court's discretion as to the order of proof, subject to
the admission of such evidence.
Penal Code section 211: Robbery is the felonious taking of personal property in the
possession of another, from his person or immediate presence, and against his will,
accomplished by means of force or fear.
Penal Code section 245(a)(2): Any person who commits an assault upon the person
of another with a firearm shall be punished by imprisonment in the state prison for two,
three, or four years, or in a county jail for not less than six months and not exceeding
one year, or by both a fine not exceeding ten thousand dollars ($10,000) and
imprisonment.
Penal Code section 667(d)(1): Notwithstanding any other law and for the purposes
of subdivisions (b) to (i), inclusive, a prior conviction of a serious or violent felony shall
be defined as: (1) Any offense defined in subdivision (c) of Section 667.5 as a violent
felony or any offense defined in subdivision (c) of Section 1192.7 as a serious felony in
this state. The determination of whether a prior conviction is a prior felony conviction
for purposes of subdivisions (b) to (i), inclusive, shall be made upon the date of that prior
conviction and is not affected by the sentence imposed unless the sentence
automatically, upon the initial sentencing, converts the felony to a misdemeanor.
Penal Code section 12022.7(f): (a) Any person who personally inflicts great bodily
A-84

injury on any person other than an accomplice in the commission of a felony or
attempted felony shall be punished by an additional and consecutive term of
imprisonment in the state prison for three years . . . . (f) As used in this section, "great
bodily injury" means a significant or substantial physical injury.
Penal Code section 12022.53(b): (a) This section applies to the following felonies:
. . . . Section 211 (robbery) . . . . (b) Notwithstanding any other provision of law, any
person who, in the commission of a felony specified in subdivision (a), personally uses
a firearm, shall be punished by an additional and consecutive term of imprisonment in
the state prison for 10 years. The firearm need not be operable or loaded for this
enhancement to apply.

A-85

4. State jury instructions.
CALCRIM 418: Coconspirator’s Statements. In deciding whether the People have
proved that the defendant committed any of the crime[s] charged, you may not consider
any statement made out of court by <insert name[s] of coconspirator> unless the People
have proved by a preponderance of the evidence that:
1. Some evidence other than the statement itself establishes that a conspiracy to
commit a crime existed when the statement was made;
2. <insert name of coconspirator[s]> was a member of and participating in the
conspiracy when he made the statement;
3. <insert name[s] of coconspirator> made the statement in order to further the
goal of the conspiracy;
AND
4. The statement was made before or during the time that the defendant was
participating in the conspiracy.
A statement means an oral or written expression, or nonverbal conduct intended to be
a substitute for an oral or written expression.
Proof by a preponderance of the evidence is a different standard of proof than proof
beyond a reasonable doubt. A fact is proved by a preponderance of the evidence if you
conclude that it is more likely than not that the fact is true.
You may not consider statements made by a person who was not a member of the
conspiracy even if the statements helped accomplish the goal of the conspiracy.

A-86

You may not consider statements made after the goal of the conspiracy had been
accomplished.

A-87

